<html>
<title> - US-VISIT EXIT: CLOSING GAPS IN OUR SECURITY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
              US-VISIT EXIT: CLOSING GAPS IN OUR SECURITY

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON BORDER, MARITIME, AND GLOBAL COUNTERTERRORISM

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 28, 2007

                               __________

                           Serial No. 110-54

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
48-928                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012009


                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina         MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

     SUBCOMMITTEE ON BORDER, MARITIME, AND GLOBAL COUNTERTERRORISM

                LORETTA SANCHEZ, California, Chairwoman

JANE HARMAN, California              MARK E. SOUDER, Indiana
ZOE LOFGREN, California              BOBBY JINDAL, Louisiana
SHEILA JACKSON LEE, Texas            DAVID G. REICHERT, Washington
JAMES R. LANGEVIN, Rhode Island      MICHAEL T. McCAUL, Texas
HENRY CUELLAR, Texas                 GUS M. BILIRAKIS, Florida
AL GREEN, Texas                      PETER T. KING, New York (Ex 
BENNIE G. THOMPSON, Mississippi (Ex  Officio)
Officio)

                         Alison Rosso, Director

                         Denise Krepp, Counsel

                       Carla Zamudio-Dolan, Clerk

        Mandy Bowers, Minority Senior Professional Staff Member

                                  (ii)
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California, and Chairwoman, Subcommittee on 
  Border, Maritime, and Global 0Counterterrorism:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Mark E. Souder, a Representative in Congress From 
  the State of Indiana, and Ranking Member, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................    21
The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida...........................................     3
The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas.............................................    29
The Honorable Al Green, a Representative in Congress From the 
  State of Texas.................................................    24

                             For the Record

Prepared Statements:
  The Honorable Mark E. Souder...................................     4
  The Honorable Bennie G. Thompson...............................     4
  Mr. Randolph C. Hite joint with Mr. Richard Stana, Director, 
    Homeland Security and Justice Issues.........................    14
  Mr. Robert Jacksta joint with Mr. Robert A. Mocny..............     9

                               Witnesses
                                Panel I

Mr. Randolph C. Hite, Director, Architecture and Systems Issues, 
  Information Technology, Government Accountability Office:
  Oral Statement.................................................    13
Mr. Robert M. Jacksta, Executive Director, Travel Security and 
  Facilitation, Office of Field Operations, U.S. Customs and 
  Border Protection:
  Oral Statement.................................................     7
Mr. Robert A. Mocny, Director, US-VISIT Program, U.S. Department 
  of Homeland Security:
  Oral Statement.................................................     5

                                Panel II

Mr. James C. May, President and Chief Executive Officer, Air 
  Transport Association:
  Oral Statement.................................................    35
  Prepared Statement.............................................    37
Ms. Ana Sotorrio, Associate Director, Governmental Affairs, 
  Miami-Dade Aviation Department:
  Oral Statement.................................................    40
  Prepared Statement.............................................    41

                                Appendix

Additional Questions and Responses:
  Responses from Mr. Robert A. Mocny.............................    49
  Responses submitted by Ms. Ana Sotorrio........................    53


              US-VISIT EXIT: CLOSING GAPS IN OUR SECURITY

                              ----------                              


                        Thursday, June 28, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
                          Subcommittee on Border, Maritime,
                               and Global Counterterrorism,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 1:05 p.m., in 
Room 311, Cannon House Office Building, Hon. Loretta Sanchez 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Sanchez, Cuellar, Green, Souder 
and Bilirakis.
    Ms. Sanchez. The subcommittee will come to order.
    The subcommittee is meeting today to receive testimony on 
the US-VISIT Exit: Closing Gaps in Our Security.
    In the interest of time, because I hear we are going to 
have votes called in about a half hour, what we will do is go 
quickly through our opening statements and give time for you 
all to give your opening statements. I think right about that 
time they will be calling the vote, and that is probably why we 
don't see too many members here right now. And then we will 
come back to take questions.
    Thank you, first of all, to our witnesses for being here 
today for US-VISIT Exit: Closing Gaps in Our Security. The U.S. 
Visit and Immigrant Status Indicator Technology, or what we 
call US-VISIT program, was created in 2003 to meet multiple 
congressional mandates, actually, which date all the way back 
to 1996, that required an automated entry-exit data system to 
track foreign nationals entering the United States and to 
detect individuals who were overstaying their visas.
    The 9/11 Commission stated that completing this biometric-
based entry-exit system was an essential investment in our 
national security; and this point was illustrated by the fact 
that seven terrorists that committed crimes between 1993 and 
2001, including four of the 9/11 terrorists, were actually 
illegal in the United States because they were overstaying 
their visas. Unfortunately, 4 years after the creation of US-
VISIT, the exit component has not been implemented.
    As I understand it, the Department of Homeland Security is 
starting to talk about implementing the US-VISIT Exit component 
for air travel. However, Congress has yet to see detailed plans 
for this rollout, and there are significant concerns about the 
degree or consultation between the Department and the airlines 
in designing this component of US-VISIT.
    I would urge the Department to review the recent Committee 
on Homeland Security majority staff report entitled, America's 
Unfinished Welcome Mat, US-VISIT A Decade Later. The report 
highlights the legislative mandates and the ongoing challenges 
of US-VISIT and what it has faced in implementing a biometric 
exit-entry system.
    In addition, many reports by the Government Accountability 
Office, or the GAO, make recommendations for improving the 
operation and the implementation of US-VISIT's biometric entry-
exit system at air, sea and land ports.
    We need to ensure that the exit component is implemented in 
an efficient manner that complies with the recommendations in 
these reports and that minimizes the negative impact on 
international travel and on our commerce. So I am looking 
forward to having this discussion. I think it is an incredibly 
important one, especially as America grapples with who is 
coming in and out of our country and how do we take care of 
this big issue in particular of people overstaying their visas.
    So I thank you for being here. I am looking forward to your 
testimony. I want to thank our ranking member right now, Mr. 
Bilirakis, for being here; and I will give him time for his 
opening statement.

   Prepared Statement of the Honorable Loretta Sanchez, Chairwoman, 
         Subcommittee on Border, Maritime, Global Counterrorism

    Good Afternoon.
    Thank you to our witnesses for being here today for this 
Subcommittee hearings on ``US-VISIT Exit: Closing Gaps in our 
Security''
    The United States Visitor and Immigrant Status Indicator Technology 
or US-VISIT program was created in 2003 to meet the multiple 
Congressional mandates dating back to 1996 that required an automated 
entry-exit data system to track foreign nationals entering the United 
States and to detect individuals that over stay their visas.
    The 9/11 Commission stated that ``completing a biometrics-based 
entry-exit system is an essential investment in our national 
security.''
    This point is illustrated by the fact that seven terrorists that 
committed crimes between 1993 and 2001, including four of the 9/11 
terrorists, were illegally in the United States after overstaying their 
visas.
    Unfortunately, four years after the creation of US-VISIT, the exit 
component has not been implemented.
    I understand that the Department of Homeland Security is starting 
to talk about implementing the US-VISIT exit component for air travel.
    However, Congress has yet to see detailed plans for this roll out, 
and there are significant concerns about the degree of consultation 
between the Department and the airlines in designing this critical exit 
component.
    I would urge the Department to review the recent Committee on 
Homeland Security, Majority staff report, ``America's Unfinished 
Welcome Mat: US-VISIT a Decade Later''
    This report highlights the legislative mandates and ongoing 
challenges US-VISIT has faced in implementing a biometric entry-exit 
system.
    In addition, this report and many reports by the Government 
Accountability Office make recommendations for improving the operation 
and implementation of US-VISIT's biometric entry-exit system at air, 
sea, and land ports.
    We need to ensure that the exit components is implemented in an 
efficient manner that complies with the recommendations in these 
reports, and minimizes the negative impact on international travel and 
commerce.
    I am looking forward to an interesting discussion about the future 
of US-VISIT's exit component.
    I'd like to thank Ranking Member Souder for his interest in this 
critical security program, and I look forward to working with him on 
this important issue.

    Mr. Bilirakis. Thank you, Madam Chair. I appreciate it very 
much.
    I would like to read actually Ranking Member Souder's 
statement.
    The ability to reliably screen, identify and track foreign 
nationals in the United States is essential for border 
security. I have been a supporter of the US-VISIT program from 
the beginning. I voted for six different laws that address the 
national entry-exit system because I think that it is critical 
for the integrity of our immigration and border management 
system to have this capability.
    The primary focus of the hearing is the Department's 
inability to implement an exit system for the US-VISIT program. 
There are clear security vulnerabilities in not knowing who has 
overstayed their visa, and the consequences are stark. 
Terrorists have exploited this security vulnerability to remain 
in the United States to carry out and plan attacks, including 
two of the co<dagger>conspirators in the first World Trade 
Center attack, one of the figures from the New York subway bomb 
plot and four of the 9/11 terrorists. Without a land exit 
system in place, we are giving terrorists a 6,000<dagger>mile 
loophole.
    I am extremely concerned that there is no exit system in 
place a year and a half after the legal mandate, and there 
doesn't appear to be any plan in place to get there.
    I would like to commend the US-VISIT program office for the 
tremendous job of standing up the biometric entry system in 
accordance with the statutory guidelines and requirements. The 
previous administration ignored the program from 1996 to 2000. 
After 9/11, the speed at which the entry program was 
established shows the capability of the United States when 
resources and political will are dedicated to a problem. I want 
to see the same desire for an exit system.
    The bottom line is that the Department's inability to 
implement US-VISIT Exit as well as other border security 
programs such as the Western Hemisphere Travel Initiative is 
prophetic of management and implementation problems that would 
befall any amnesty or guest worker program currently being 
debated in the Senate. I understand it did not get cloture. If 
the Federal Government cannot gain operational control over the 
border and implement a functional border management system, it 
is doubtful that a massive amnesty program could be developed 
that wouldn't overload the agencies and throw the system into 
chaos.
    I look forward to the testimony today and hearing about the 
status and plans for US-VISIT. I would like to thank the 
witnesses for being here and express my appreciation to the 
Chair for holding this hearing.
    I yield back; and I do have an opening statement a little 
later when we get to the questions, if that is okay, Madam 
Chair. Thank you.
    Ms. Sanchez. Great. I thank the gentleman from--Florida?
    Mr. Bilirakis. Florida, correct.
    Ms. Sanchez. The gentleman from Florida.
    Other members of the subcommittee are reminded that, under 
the committee rules, opening statements may be submitted for 
the record.
    [The information follows:]

                             For the Record

   Prepared Opening Statement of the Honorable Mark Souder, Ranking 
     Member, Subcommittee on Border, Maritime, and Global Terrorism

    The ability to reliably screen, identify, and track foreign 
nationals in the United States is essential for border security. I have 
been a supporter of the US-VISIT program from the beginning. I voted 
for all of the six different laws that address the national entry/exit 
system because I think that it is critical for the integrity of our 
immigration and border management system to have this capability.
    The primary focus of the hearing is the Department's inability to 
implement an exit system for the US-VISIT program. There are clear 
security vulnerabilities in not knowing who has overstayed their visa 
and the consequences are stark. Terrorists recognize have exploited 
this security vulnerability to remain in the U.S. to carry out and plan 
attacks, including 2 of the conspirators in the first World Trade 
Center attack, one of the figures from the New York subway bomb plot, 
and 4 of the 9/11 terrorists. Without a land exit system in place, we 
are giving terrorists a 6,000 mile loophole.
    I am extremely concerned that there is no exit system in place 1 1/
2 years after the legal mandate. And there doesn't appear to be any 
plan in place to get there.
    I would like to commend the US-VISIT Program Office for the 
tremendous job of standing up the biometric entry system in accordance 
with the statutory requirements. The previous Administration ignored 
the program from 1996 to 2000. After 9/11, the speed at which the entry 
program was established shows the capability of the United States when 
resources and political will are dedicated to a problem. I want to see 
the same desire for an exit system.
    The bottom line is that the Department's inability to implement US-
VISIT exit, as well as other border security programs, such as the 
Western Hemisphere Travel Initiative, is prophetic of management and 
implementation problems that would befall any amnesty or guest worker 
program currently being debated in the Senate.
    If the Federal government cannot gain operational control over the 
border and implement a functioning border management system, it is 
doubtful that a massive amnesty program could be developed that 
wouldn't overload the agencies and through the system into chaos.
    I look forward to the testimony today and hearing about the status 
and plans for US VISIT. I would like to thank the witnesses for being 
here and express my appreciation to the Chair for holding this hearing.
    I yield back.

  Prepared of Statement of the Honorable Bennie G. Thompson, Chairman 
                     Committee on Homeland Security

    <bullet> Since 1996, Congress has called for a system to track the 
entry and exit of visitors to our country.
    <bullet> After 9/11, we required this system, now known as US-
VISIT, to collect biometric information because of the security 
enhancements biometrics offer.
    <bullet> However, after 10 years, $1.7 billion in taxpayer dollars, 
and a 9/11 Commission recommendation to complete the system ``as 
quickly as possible,'' the Department has completed only the entry 
portion of the US-VISIT program.
    <bullet> Some people are optimistic when they see a glass that is 
half full.
    <bullet> I wish I could be one of those people today, but the track 
record for US-VISIT exit leaves me very skeptical.
    <bullet> Regarding the admittedly difficult task of implementing an 
exit system at land ports of entry, it seems the Department has decided 
to punt to the next Administration.
    <bullet> Regarding an exit system at airports, however, the 
Department has indicated that it plans to undertake a new initiative 
over the next year-and-a-half.
    <bullet> This is a promising step, but I hope the Department has 
learned from previous failed efforts toward implementing exit programs.
    <bullet> Unfortunately, we have seen very little detail about the 
Department' new biometric exit strategy for airports.
    <bullet> All we have is a so-called ``strategic plan'' that tells 
us the new exit procedure will be incorporated into the airline 
``check-in process.''
    <bullet> But what does this mean? Is the Department really 
implementing a plan that it has not even tested?
    <bullet> I am concerned about a plan that would delegate our 
federal security screening responsibilities to the air carriers or fail 
to adequately engage Congress and key stakeholders.
    <bullet> The US-VISIT report released by the Committee today 
outlines some of our ongoing concerns.
    <bullet> Hopefully today's hearing will speak to these concerns and 
offer insight into the proposed new plan for US-VISIT air exit.

                         FOR IMMEDIATE RELEASE

                               US-VISIT:

                    America's Unfinished Welcome Mat

    June 28, 2007 (WASHINGTON)--Today, the Majority Staff of the 
Committee on Homeland Security, headed Rep. Bennie G. Thompson (D-MS), 
Chairman of the Committee on Homeland Security, and Rep. Loretta 
Sanchez (D-CA), Chairwoman of the Subcommittee on Border, Maritime and 
Global Counterterrorism, released a report on the state of the US-VISIT 
program. The report analyzes the current path of US-VISIT while giving 
recommendations to secure our borders.
    Chairman Thompson issued the following statement regarding the 
report:
    While we understand tracking the entry and exit of foreign 
nationals is no small task, the Department must take concrete steps 
towards deploying US-VISIT's exit capabilities before making any 
drastic changes to the system. Each day the Department delays 
implementation of a biometric entry and exit system, the nation's 
vulnerability to terrorist attack grows.

    Chairwoman Sanchez added the following:
    Unfortunately four years after the creation of the US-VISIT, the 
exit component has not been implemented. Today's report signals the 
need for DHS to work with Congress to efficiently implement the exit 
component of US-VISIT to improve our nation's security, while 
minimizing the negative impact on international travel and commerce.

    Ms. Sanchez. I welcome our first panel of witnesses.
    Our first witness is Robert Mocny, who is the Director of 
the US-VISIT program. In that capacity, he is responsible for 
the day-to-day operations of US-VISIT, including managing the 
development and the deployment of the program.
    Our second witness is Mr. Robert Jacksta, Executive 
Director for Travel Security and Facilitation at the Customs 
and Border Protection's Office of Field Operations. Do you say 
that each and every time? In that capacity, he is responsible 
for implementing passenger programs that combat international 
terrorism and smuggling, specifically those related to 
processing passengers entering and exiting the United States.
    And our third witness is Mr. Randy Hite, Director of 
Information Technology Architecture and Systems Issues at the 
Government Accountability Office, where he is responsible for 
GAO's work on information technology issues across the 
government concerning architecture and systems acquisition 
development, operations and maintenance.
    Welcome to all of you; and, without objection, the 
witnesses' full statements will be inserted into the record.
    I now ask each witness to summarize his statement for 5 
minutes, beginning with Mr. Mocny.

STATEMENT OF ROBERT A. MOCNY, DIRECTOR, US-VISIT PROGRAM, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Mocny. Thank you, Madam Chairman Sanchez and Ranking 
Member Bilirakis. I appreciate the invitation to be with you 
today to talk to you about how US-VISIT is, in fact, improving 
our Nation's security.
    Let me also say how pleased I am to be joined by my 
colleague, Bob Jacksta, Customs and Border Protection, or CBP, 
with whom we work on a daily basis to protect our Nation's 
borders.
    I am also pleased to be here with Mr.Randy Hite of the 
Government Accountability Office. Randy has been focused on the 
US-VISIT program since 2001, actually before US-VISIT became 
the US-VISIT program; and he has offered his constructive 
recommendations to improve how we do our business.
    Biometric control is a priority for securing our Nation's 
borders. You have said so. The 9/11 Commission has said so. The 
Secretary of Homeland security has said so. We at the 
Department of Homeland Security are working every day to meet 
this mandate and make our Nation more secure.
    Today, biometrics provide DHS with an additional tool to 
match biographic records that might otherwise go unmatched. 
Merging biographic and biotechnology information holds the 
greatest promise to close the matching gap and ultimately close 
the door on those persons who seek to exploit holes in our 
immigration system.
    Biometrics are a critical component to achieving broad 
success in an exit control system. During the last 3 years, DHS 
has conducted significant planning and testing, looking at 
possible solutions for integrating US-VISIT biometric exit 
requirements into the international air departure process.
    US-VISIT conducted biotechnology exit pilots at 12 airports 
and 2 seaports, some starting as early as January, 2004, when 
US-VISIT was first launched. By the time we completed our 
testing of biotechnology exit technology and procedures in May 
of 2007, we had learned an important lesson, the technology 
works and works well, but the procedures did not.
    Travel compliance with the pilots was low. Unlike entry, 
with no infrastructure in which to embed exit procedures, 
travellers had to change their behavior independently.
    Our final evaluation of the pilot determined that, to 
achieve 100 percent compliance, biometric exit procedures need 
to be incorporated into what travellers are already doing, into 
the current processes for international travel.
    Based on the pilots and other potential options, DHS had 
determined that US-VISIT air records should be incorporated 
into the airline check-in process. This option will minimize 
the impact on legitimate travellers and dramatically improve 
compliance.
    We know that DHS's proposed solution requires significant 
outreach and partnership with the airline industry, and the 
Department has begun that outreach.
    In order to minimize the carrier impacts, DHS proposes 
providing a single interface to air carriers for meeting U.S. 
Government passenger data requirements. This will ensure that 
airlines would not be sending multiple or duplicative data sets 
to DHS for the same person.
    DHS is also considering technical and financial assistance 
for air carriers to assist with the initial implementation.
    In deploying biometric exit procedures, US-VISIT will 
prioritize the departure airports based on volume and 
destinations of travellers departing the United States. Since 
more than 91 percent of all travellers from countries of 
interest arrive in the United States by air, an effective 
biometric exit process is essential to assessing risk and 
enhancing the integrity of our immigration and border 
management system.
    DHS plans to publish a notice of proposed rulemaking 
outlining the Department's approach to implementing biometric 
air exit procedures by the end of this calendar year, with the 
final rule published by June of 2008 and final execution by 
December of 2008.
    The same basic protocols will apply to the cruise lines as 
well. As you know, the land border ports pose unique challenges 
of their own.
    DHS continues to research options and cost estimates that 
will meet our goals without a negative impact on the economy 
and the environment or travellers' safety.
    In the short term, exit procedures at land ports cannot be 
based on biometric solutions. The scope and complexity are 
simply too great. While we continue our search for solutions, 
DHS will instead seek to match records using biographic 
information in instances where no current collection exists 
today.
    A comprehensive long-term traveller exit strategy for the 
United States is a exceedingly complex and costly challenge. It 
is a challenge subject to change due to fluctuating terrorist 
threat levels, evolving supporting policies and developing 
technologies. In order to meet this challenge, DHS must seek 
new technologies and modernize facilities, establish new levels 
of inter and intragovernmental cooperation and identify and 
commit significant investments.
    DHS is relying on the dedicated women and men of US-VISIT 
and their proven track record of success to get the job done; 
and although the challenge of creating a biometric exit system 
is complex, we are prepared to meet this head on. I hope you 
will continue to support our efforts.
    Thank you, and I will be glad to take your questions.

  STATEMENT OF ROBERT M. JACKSTA, EXECUTIVE DIRECTOR, TRAVEL 
  SECURITY AND FACILITATION, OFFICE OF FIELD OPERATIONS, U.S. 
                 CUSTOMS AND BORDER PROTECTION

    Mr. Jacksta. Good afternoon, Chairman Sanchez. Good 
afternoon, members. I am pleased to be here today to let you 
know what the Department of Homeland Security is doing as well 
as Customs and Border Protection is doing at our ports of entry 
to protect the United States.
    I would like to begin by recognizing the very good close 
working relationship that we have had with US-VISIT over the 
years. We have been able to implement US-VISIT at our ports of 
entry, and it is a very valuable tool to our officers today.
    As you know, CBP has an enormous challenge. We share more 
than 7,000 miles of border with Canada and Mexico and operate 
325 ports of entry. Each day, CBP officers inspect more than 
1.1 million travellers arriving at our ports of entry; and we 
examine the documents, their baggage and their vehicles. Last 
year alone, CBP welcomed over 422 million travellers through 
their official ports of entry. During fiscal year 2006, CBP 
processed a record 87 million passengers arriving from abroad 
by air. However, in this largely compliant group of travellers 
CBP denied entry to more than 209,000 inadmissible visitors and 
seized 646,000 pounds of illegal narcotics.
    To address this challenge, CBP has implemented a Smart 
Border Strategy to provide security and enforce U.S. laws both 
at and between ports of entry as well as extending our security 
zones beyond our own borders. A key component of this strategy 
at our borders is to use advanced electronic information and an 
automated risk management system that identifies and targets 
high-risk travellers well before arrival in the United States.
    Advance information regulations were initially implemented 
under the Aviation and Transportation Security Act of 2001 and 
the Enhanced Border Security and Visa Reform Act of 2002. On 
April 7, 2005, the IAFIS final rule was published in the 
Federal Register, requiring manifest information from all 
commercial air and sea carriers arriving into or departing from 
the United States. This manifest information includes a name, 
date of birth, document type, document number and gender of all 
arriving and departing passengers and crew. The Advance 
Passenger Information System has become a critical tool in 
securing our Nation's borders and increasing the facilitation 
of legitimate air and sea travellers.
    CBP is continually evaluating the data and by working with 
the airlines and vessel industry has achieved improved advance 
information compliance. The current inbound and outbound IAFIS 
transmission compliance rate is over 99 percent. The arrival 
and departure information system within DHS is a system that 
can be used to match non-U.S. citizen arrival records with 
departure records. The current non-U.S. citizen match rate is 
93-percent, and the current Visa Waiver Program match rate is 
close to 96-percent.
    To further our security and after extensive consultation 
with the U.S. and international airline partners, DHS has also 
published a pre-departure notice of proposed rulemaking on July 
14, 2006. This proposed rule offered two options for carriers 
to transport passenger data to DHS in a manner sufficient to 
allow DHS to screen all international travellers prior to their 
departure. Specifically, air carriers can transmit complete 
manifests prior to departure or they can transmit passenger 
data as individual realtime transactions as each traveller 
checks in.
    When the rule is finalized and implemented, the United 
States government will take on the watchlist screening 
responsibilities for all travellers arriving into or departing 
from the United States aboard a commercial aircraft or vessel.
    In addition to receiving advance passenger information, CBP 
also uses technology to screen travellers and goods at our 
ports of entry for weapons of mass destruction. CBP officers 
also screen travellers at selected foreign airport locations 
throughout our immigration advisory program.
    Finally, CBP has developed a training program for air 
carrier personnel and their security screenings on fraudulent 
document detection and imposter recognition through our carrier 
liaison program.
    Madam Chairman, members of the committee, I appreciate this 
opportunity to testify before you. I can assure you CBP will 
remain vigilant in the war against terrorism both at our 
Nation's ports of entry and we will continue to add appropriate 
additional layers of security overseas.
    At this time, I would be happy to answer any questions you 
may have today.
    Ms. Sanchez. Thank you.
    [The statement of Mr. Mocny and Mr. Jacksta follows:]

                Prepared Joint Statement for the Record

                   Robert A. Mocny and Robert Jacksta

    Madam Chairman Sanchez, Ranking Member Souder, Members of the 
Subcommittee--Good Morning. Thank you for the opportunity to appear 
before you to discuss US-VISIT's role in addressing the border security 
needs of our Nation.

Introduction
    The Department of Homeland Security (DHS) plans to modernize and 
improve our immigration and border management system through 
integration, collaboration, and cooperation among all parts of the 
immigration and border management community. This community includes 
important stakeholders in the private sector, such as air and sea 
carriers. As a component of that overall vision, the Secretary of 
Homeland Security, Congress, and the 9/11 Commission have all 
identified exit control as a priority in order to secure our Nation's 
borders. In this testimony we will provide an overview of how we plan 
to implement biometric exit strategies through a phased approach at our 
air, sea, and land ports. The data obtained through biometric exit will 
allow DHS and the Department of State (DOS), as well as other federal 
agencies, to determine whether a foreign traveler has left the country 
and, if so, when; and whether such an individual is deserving of future 
benefits, such as visa renewal or re-admittance to the United States.
    Presently, DHS captures biometric information on entry through the 
United States Visitor and Immigrant Status Indicator Technology (US-
VISIT) Program. This includes the verification of biometrics of 
travelers with visas, who are fingerprinted abroad by the Department of 
State as part of the BioVisa Program. The use of biometric 
identifiers--specifically digital fingerprints and photographs--has 
made travel safer and more secure. DHS and DOS can now identify persons 
attempting to enter the United States using fraudulent identities and 
screen individuals to determine whether they constitute a risk to 
national security. These biometrics are used to lock the identity of an 
individual during his or her first encounter with the U.S. Government, 
to verify the identity of the individual upon subsequent encounters, 
and to run appropriate watch list checks on the individual if he or she 
is seeking immigration benefits or admission to the United States.
    There are considerable law enforcement and intelligence benefits 
from being able to accurately document the entry and exit of foreign 
nationals and to conduct trend analysis on arrivals and departures. In 
addition, accurately identifying individuals who stay in the United 
States beyond their authorized period of admission (``overstays'') will 
allow DHS to focus resources to address known (or confirmed) overstays 
and permit DHS and DOS to place greater emphasis on properly 
adjudicating travel and immigration benefits.
    Development of biometric exit is under way. However, a significant 
challenge facing the deployment of biometric exit is that our air, sea, 
and land ports lack the infrastructure to conduct exit control. Unlike 
entry, there are currently no fixed inspection booths or other 
facilities to process international travelers as they leave the United 
States. Thus, DHS is left in the position of having to negotiate with 
air and sea port authorities for the space and/or for facilities needed 
to implement biometric exit. There are difficulties in creating the 
infrastructure, architecture, and operational processes for biometric 
exit screening. These difficulties not only impact space and equipment 
issues, but also impact the departure process of travelers.
    Despite these challenges, DHS is committed to deploying biometric 
exit capabilities at our ports. To achieve the benefits noted and to 
better secure our border, DHS proposes an incremental deployment into 
the three departure environments--air, sea, and land--with an initial 
focus on air and the corresponding development of data analysis needed 
to produce highly reliable, actionable information.

Current Exit Process
    DHS has come a long way in the exit process in a short period of 
time. Previously, the legacy Immigration and Naturalization Service 
(INS) relied solely on a paper-based system of Form I-94 documents to 
record a non-immigrant's entry and exit. Travelers manually completed 
Form I-94 prior to entry inspection and received a stub from the form, 
which would then be returned to the traveler for collection by the air 
carriers upon departure from the U.S. This non-automated system was 
deficient in a number of areas, including lack of timeliness, lost 
documents, poor data integrity, and carrier non-participation. These 
issues precluded legacy INS from having an accurate picture of who was 
still in the United States, and who had departed (without having their 
exit recorded). Consequently, scarce interior enforcement resources 
were sometimes used to investigate individuals who had already 
departed.
    To address these issues, U.S. Customs and Border Protection (CBP) 
implemented the Automated Passenger Information System (APIS) to 
collect manifest data on arrival and departure in an automated manner. 
APIS not only improved the timeliness of the information, but also 
increased the number of departure records collected. Additionally, 
recent work with the carriers has increased compliance rates, which in 
turn has led to a subsequent, positive impact on matching exit to entry 
records.
    Over the next six to twelve months, DHS anticipates that APIS 
reporting will continue to improve. CBP will continue to work with 
carriers to improve performance. US-VISIT will look to make 
improvements to matching algorithms as well.
    A number of factors exist that prevent DHS from making a 100 
percent match of entry and exit records, regardless of the technology 
used. These include: (1) the individual legally entered the U.S. prior 
to the full implementation of the Arrival and Departure Information 
System (ADIS) (the system was initially implemented in October 2002, 
with additional classes of admission in January 2004); (2) the quality 
of the data collected at departure was not sufficient to match against 
the arrival record or vice versa; (3) a traveler exited using a 
different document (i.e., dual nationals); and (4) an arrival record 
was not captured at the time the person entered the United States (for 
example, illegal entry, or the traveler arrived by land and departed by 
air or vice-versa).
    However, DHS believes that there is still substantial room to 
improve entry and exit matching. Biometrics is one key means to achieve 
this goal.

The Potential for Biometrics at Exit
    US-VISIT tracks and records entry and exit records to determine 
those who have overstayed their authorized period of admission. 
Individuals identified by entry/exit analysis who have overstayed the 
terms of their admission, or who are wanted or otherwise encountered by 
law enforcement, may be apprehended. This analysis of records has been 
conducted with both biographic information--such as name, date of 
birth, document numbers, etc.--and with biometric (fingerprint) 
information collected during visa applications or entry.
    Based on US-VISIT analysis of biographic and biometric overstay 
information, U.S. Immigration and Customs Enforcement (ICE) has made 
308 arrests between September 2004 and May 2007 (when biometric exit 
testing ended).
    US-VISIT merges biographic and biometric data to achieve accurate 
matches of exit records to entry records. Information is drawn from 
APIS manifests, departure Form I-94 documents, and from the locations 
where biometric exit pilots were operated (from January 2004 to May 
2007). This work is done through ADIS and validated by US-VISIT's Data 
Integrity Group (DIG). For the month of April, ADIS was able to achieve 
a match rate of 93.1 % of all non-U.S. Citizens, based upon APIS 
biographic information and biometric information from the 14 pilot 
locations.
    Additionally, work done through IDENT, the Automated Biometric 
Identification System, improves the matching efforts of ADIS and 
includes conducting ``recurrent checks'' against all enrolled 
fingerprints In other words, as new derogatory information is received 
(e.g., where a person for whom no information that would exclude 
eligibility for admission existed at the time he or she entered the 
United States later becomes the subject of a criminal arrest warrant), 
those prints are checked against the entire population of fingerprints 
on file. Files that are matched are then used by other DHS components 
and DOS to determine eligibility for subsequent immigration benefits, 
such as re-admittance into the U.S. or visa renewals.
    Based upon the pilots, DHS plans to move forward with a full 
deployment of biometric exit to maximize the benefits biometrics can 
bring to entry-exit matching. In turn, this improved matching will 
bring many benefits to the immigration and border management 
enterprise. Under the initial phases of the implementation of our 
biometric exit program, data will be used for the following purposes:
        <bullet> Overstay information will be analyzed by US-VISIT and 
        forwarded to ICE for further follow-up and interior 
        enforcement;
        <bullet> Exit information will be used on an individual basis 
        during subsequent applications for admission to the United 
        States, visa issuance and renewal, or other immigration 
        benefits; and
        <bullet> Exit information will be analyzed in the aggregate to 
        identify weak areas in our immigration and border management 
        system where overstay is prevalent. This will require the 
        development of new analytic capabilities within DHS and DOS.
    While biographic information is being used to address these goals, 
it tends to be less accurate than biometric data and may not be 
automated, thus requiring more time and resources.
    Biometric exit collection is key to assisting DHS and DOS in 
``closing the door'' on those individuals that seek to exploit our 
immigration and border management enterprise. Comprehensive trend 
analysis will allow DHS and DOS to identify specific visa-issuing 
posts, visa categories, Visa Waiver Program (VWP) countries, or other 
criteria that may be common to an unacceptably high overstay rate. 
Subsequent visa applicants and travelers from those same posts, 
categories, and countries will then receive increased scrutiny.

Exit in the Air Environment
    DHS has done significant planning and testing over the past three 
years looking at possible solutions for integrating US-VISIT biometric 
exit requirements into the international air departure process, 
considering deployment at airline ticket counters, TSA checkpoints, 
airline boarding gates, and in airport terminals. For more than two 
years, US-VISIT has run biometric exit pilots at 14 air and sea 
locations, involving the use of automated kiosks, and sometimes mobile 
devices, in port terminals. While the pilots demonstrated that the 
technology works, they also revealed low compliance by travelers. Given 
the analysis of the pilots and other potential options, DHS has 
determined that US-VISIT air exit should be incorporated into the 
airline check-in process.
    Such deployment integrates into the current international departure 
process and minimizes the impact on legitimate travelers. It 
facilitates a consistent procedure regardless of the traveler's 
departure location and incorporates biometric exit requirements with 
existing data submission requirements from CBP and future requirements 
of TSA.
    DHS's proposed solution requires significant outreach and 
partnership with the airline industry and we have begun that outreach 
with U.S. air carriers. DHS proposes to minimize carrier impacts by 
providing a single interface to air carriers with respect to U.S. 
Government passenger data requirements. With strong support through the 
DHS Screening Coordination Office, DHS has taken significant steps to 
integrate CBP's pre-departure APIS with TSA's plans for Secure Flight. 
US-VISIT has been brought into these discussions to ensure alignment of 
policies, operations, and investments among all three programs. Once 
operational, APIS pre-departure, biometric exit, and Secure Flight will 
utilize the same network interface between DHS and air carriers, as 
well as the same messaging formats.
    Over the next year, DHS will take a number of steps toward full 
implementation of biometric exit in the air environment. DHS will 
refine the project plan and deployment options, as well as ensure 
technical alignment with the pre-departure APIS and Secure Flight, as 
proposed. DHS will engage in a more detailed conversation with the 
airline industry and make a subsequent public announcement on the 
Department's exit strategy.
    DHS is considering acquisition strategies and how best to support 
air carriers in their role. This could include financial and technical 
assistance for the initial implementation, such as grants for equipment 
or the reuse of existing 1-print readers as US-VISIT and the Department 
of State deploy 10-Print readers to ports of entry and consular posts. 
US-VISIT will also consider issuing a Request for Information (RFI) for 
additional scanning devices that would combine the collection of 
biometrics with a full page passport scanner. These options will be 
refined as DHS works with air carriers in assessing the costs of both 
initial deployment and continued operations and maintenance, as well as 
deploying air exit at pilot locations.
    In developing the deployment schedule, US-VISIT will prioritize the 
departure airports based on volume and destinations of travelers 
departing the United States. A critical focus of counterterrorism 
efforts is recording the arrival of travelers from Countries of 
Interest (COIs), which is conducted by the National Counter Terrorism 
Center (NCTC), DHS, FBI, and DOS. Over 91 percent of all COI travelers 
arrive in the United States via air. Knowing which travelers from COIs 
complied with the terms of their admission, including whether they have 
overstayed their authorized period of admission, is essential to 
assessing risk and to enhancing the integrity of our immigration and 
border management system.
    Additionally, it is expected that deployment of US-VISIT air exit 
will cover the vast majority of VWP travelers. These are travelers from 
mostly western European countries that enter the United States for 
business or pleasure without a visa for a period of 90 days or less. 
DHS is currently working to publish in FY 2007 the regulatory framework 
needed to support the new exit strategy.

Exit in the Sea Environment
    The long-term exit solution will be deployed to commercial seaports 
to provide an integrated biometric exit capture for cruise line 
passengers. Biometrics will be captured and processed in a manner 
aligned with the protocol developed for air exit and allowing for 
optimal efficiency in traveler processing. However, the scope for 
biometric exit at sea will be considerably smaller than for air. US-
VISIT biometric collection at entry is currently operational at 17 
seaports. The biometric exit solution will be deployed to all seaport 
locations where cruise ships depart. Seaport deployment will occur 
after the air environment, so that lessons learned can be applied.

Exit in the Land Environment
    The land ports have their own unique set of challenges. 
Implementing biometric confirmation of the departure of travelers via 
land ports of entry will be significantly more complicated and costly 
than for air and sea. The main reason for this is that there are 
significant space, infrastructure, and connectivity deficiencies at the 
land ports for exit.
    Because of the immense scope and complexity of the land border, 
biometric exit information cannot be practically based on biometric 
validation in the short term. Instead, DHS will initially seek to match 
records using biographic information in instances where no current 
collection exists today.
    In an effort to address biographic exit data collection capability 
along the land borders, US-VISIT will work with the DHS Secure Border 
Initiative (SBI) effort to meet the challenge of border security. DHS 
has not yet determined a timeframe or cost estimates for initiation of 
land exit, but continues to research possible options. No matter the 
course of action, DHS will move in a deliberative manner on exit at the 
land ports to avoid negative repercussions on the economy, the 
environment, and traveler safety that could easily occur from 
precipitous action.

US-VISIT Program
    DHS will rely on the proven track record of the US-VISIT Program, 
and its history of working with multiple federal agencies and private 
sector stakeholders to implement the envisioned exit solution.
    DHS created the US-VISIT Program in July 2003 to meet statutory 
requirements and, more broadly, to achieve the following program goals:
        <bullet> To enhance the security of our citizens and visitors;
        <bullet> To facilitate legitimate travel and trade;
        <bullet> To ensure the integrity of our immigration system; 
        and* To protect the privacy of our visitors.
    The addition of biometrics, coupled with the integration of 
databases, has contributed to improved decision-making and information 
sharing across the immigration and border management community. In each 
of the incremental improvements that have been successfully deployed to 
date, all of the four goals listed above have been met.
    DHS met its first statutory requirement by integrating existing 
arrival and departure biographic information on December 31, 2003. 
Subsequently, DHS:
        <bullet> deployed US-VISIT biometric entry procedures at 
        airports and seaports on January 5, 2004, for those individuals 
        applying for admission with nonimmigrant visas;
        <bullet> expanded biometric entry procedures to include those 
        individuals applying for admission under the Visa Waiver 
        Program (VWP) on September 30, 2004;
        <bullet> supported the deployment of the DOS BioVisa Program, 
        completed in October 2004;
        <bullet> deployed biometric entry to the 50 busiest land ports 
        before the legislative deadline of December 31, 2004;
        <bullet> deployed biometric entry capabilities to the remaining 
        104 land border ports of entry before the Congressionally 
        mandated deadline of December 31, 2005;
        <bullet> deployed technology for biometrically enabled e-
        Passports to the 33 airports that cover 97 percent of all 
        travel from VWP countries as of November 2006;
        <bullet> tested radio frequency identification (RFID) at five 
        test sites along the Northern and Southern land borders to 
        capture entry/exit information, trigger updated watchlist 
        checks, and provide the results of this information to the CBP 
        officer at entry; and
        <bullet> tested the collected biometrics during exit for 
        travelers departing the U.S., from January 4, 2004 to May 5, 
        2007, at as many as 14 pilot locations.
    One of the major initiatives that US-VISIT is presently 
implementing is the development of interoperability between the DHS 
biometric database--IDENT--and the FBI's fingerprint database, the 
Integrated Automated Fingerprint Identification System (IAFIS). This 
exchange of information allows DOS consular officers and DHS border and 
immigration officers to have access to an additional number of FBI 
wants and warrants when making visa-issuing and admissibility decisions 
and when taking law enforcement actions. Likewise, the FBI and State 
and local law enforcement officials have the ability to query Category 
One visa refusals (e.g., generally one involving a permanent ground of 
inadmissibility) and all expedited removals. DHS and DOJ are working to 
increase the amount of data they exchange, thus improving the accuracy 
and usefulness of information available to border security officials 
and to State and local law enforcement. One of the benefits of US-
VISIT's transition to ten-print enrollment is that it facilitates more 
efficient IAFIS and IDENT interoperability through the use of a common 
biometric template.

Conclusion
    A comprehensive long-term traveler exit strategy for the United 
States is an exceedingly complex and costly challenge and is subject to 
constant change due to factors such as fluctuating terrorist threat 
levels, evolving supporting policies, and developing technologies. DHS 
must meet this challenge by using new technologies and modernized 
facilities, establishing new levels of inter- and intra-governmental 
cooperation, and identifying and committing significant investment.
    Thank you for this opportunity to testify. We look forward to 
answering any questions you may have.

    Ms. Sanchez. Mr. Hite for 5 minutes.

   STATEMENT OF RANDOLPH C. HITE, DIRECTOR, ARCHITECTURE AND 
      SYSTEMS ISSUES, INFORMATION TECHNOLOGY, GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Mr. Hite. Thank you very much.
    Let me begin by commending the subcommittee for holding 
this hearing on that side of US-VISIT that can best be 
described as an enigma, namely US-VISIT Exit.
    As your opening remarks indicated, US-VISIT is supposed to 
be two-sided, meaning it is to have both an entry and an exit 
capability. The good news is that entry is operating at almost 
300 ports of entry as well as over 200 visa-issuing posts, and 
these capabilities have prevented illegal visitors from coming 
to our country and have arguably deterred others from trying. 
The bad news is that the other side of US-VISIT, namely exit, 
is not operating anywhere.
    The question thus becomes, why is that the case with US-
VISIT Exit? And what are the prospects for this changing 
anytime soon?
    My written statement addresses this question, and I will 
summarize it by first quoting the Spanish philosopher who said, 
those who ignore the history are doomed to repeat it.
    As our previous reports chronicled, the history of US-VISIT 
Exit shows a pattern of inadequate definition, planning and 
justification around the solution to be pursued and how it is 
to be pursued. As a result, 4 years of activity and $250 
million in allocated funding has yet to produce an operational 
exit capability.
    As of today, I have not seen evidence that this has changed 
in any significant way; and, in fact, everything seems to be 
pointing to DHS ignoring and thus repeating its history on the 
US-VISIT Exit. In particular, the latest US-VISIT expenditure 
plan calls for investing $27 million on an unspecified air and 
sea biometric exit solution and suggests that this is just the 
beginning.
    However, similar to the past, it has yet to produce either 
the plans or the analyses that adequately define and justify 
exactly what it intends to do and deliver by when, much less 
how it intends to deliver it. Rather, DHS is repeating history 
by making generous statements about fully implementing 
undefined biometric exit capabilities at airports even in 2008 
or 2009, depending on what planning document you look at, 
engaging with airlines in some yet-to-be-defined manner, but, 
nevertheless, saying it will issue a proposed Federal 
regulation requiring airline participation by the end of this 
year and replicating at seaports whatever this airport exit 
capability turns out to be.
    To quote the Major League Baseball icon, Yogi Berra, this 
is like deja vu all over again.
    As we have stated many times, successfully delivering a 
cost<dagger>effective US-VISIT Exit capability depends in large 
part on having adequate plans and justifications governing the 
solution to be required and deployed. Without it, the chances 
of success are not good.
    In closing, I believe it was Ben Franklin who said, the 
definition of insanity is doing the same thing over and over 
again and expecting different results.
    In my view, it is not reasonable for the Department to 
continue taking the same undefined and unjustified approach to 
US-VISIT Exit and expect that the outcome will be any different 
than it is today, namely no operational exit capability despite 
4 years and $250 million. Accordingly, I would urge the 
Department to approach its latest attempt in delivering long-
overdue exit capabilities in the kind of rigorous and 
disciplined fashion that our prior recommendations embody. 
Until it does, the prospects of a cost-effective operational of 
biometrically enabled exit capability would be diminished, 
which in turn holds consequences for DHS's ability to perform 
its border security and immigration enforcement missions 
effectively and efficiently.
    For example, the absence of an exit capability means that 
important data are not available to DHS's immigration and 
customs enforcement organization in targeting its limited 
resources to identify and remove foreign nationals who have 
overstayed their visas.
    With that concluding thought, I would be happy to answer 
any questions you have.
    Ms. Sanchez. Thank you, Mr. Hite.
    [The statement of Mr. Hite follows:]

                        Prepared Joint Statement

                                   of

  Randolph C. Hite, Director, Information Technology Architecture and 
                             Systems Issues

                                  with

    Richard M. Stana, Director, Homeland Security and Justice Issues

    Madam Chairwoman and Members of the Subcommittee,
    We appreciate the opportunity to participate in the subcommittee's 
hearing focusing on the exit side of the United States Visitor and 
Immigrant Status Indicator Technology (US-VISIT). As you know, US-VISIT 
is a multibillion dollar program of the Department of Homeland Security 
(DHS) that is to, among other things, enhance the security of our 
citizens and visitors and ensure the integrity of the U.S. immigration 
system. To achieve these goals, US-VISIT is to record certain 
travelers' \1\ entry and exit to and from the United States at over 300 
ports of entry (POEs), verify their identity, and determine their 
compliance with the terms of their admission and stay.
---------------------------------------------------------------------------
    \1\ US-VISIT applies to foreign travelers that enter the United 
States under a nonimmigrant visa or are traveling from a country that 
has a visa waiver agreement with the United States under the Visa 
Waiver Program. The Visa Waiver Program enables foreign nationals of 
certain countries to travel to the United States for tourism or 
business for stays of 90 days or less without obtaining a visa.
---------------------------------------------------------------------------
    Since fiscal year 2002, we have produced eight reports that have 
identified fundamental challenges that DHS continues to face in 
defining and justifying the program's future direction and delivering 
program capabilities and benefits on time and within cost.\2\ Our 
testimony today draws on the above cited reports as well as our ongoing 
work for the House Committee on Homeland Security on the definition and 
completion of US-VISIT's strategic solution. All the work on which this 
testimony is based was performed in accordance with generally accepted 
government auditing standards.
---------------------------------------------------------------------------
    \2\ See, for example, GAO, Homeland Security: Risks Facing Key 
Border and Transportation Security Program Need to Be Addressed, GAO-
03-1083 (Washington, D.C.: Sept. 19, 2003); GAO, Border Security: US-
VISIT Program Faces Strategic, Operational, and Technological 
Challenges at Land Ports of Entry, GAO-07-248 (Washington, D.C.: 
December 6, 2006); and GAO, Homeland Security: Planned Expenditures for 
U.S. Visitor and Immigrant Status Program Need to Be Adequately Defined 
and Justified, GAO-07278 (Washington, D.C.: Feb. 14, 2007).
---------------------------------------------------------------------------
    In summary, DHS has invested about $1.3 billion over 4 years and 
delivered basically one-half of US-VISIT, meaning that biometrically 
enabled entry capabilities are operating at almost 300 air, sea, and 
land POEs, but comparable exit capabilities are not. Moreover, the 
prospects for this changing are essentially as uncertain today as they 
were 4 years ago, despite the fact that the department's funding plans 
have provided about one-quarter of a billion dollars to exit-related 
efforts. During this time, we have continued to cite weaknesses in how 
DHS was managing US-VISIT in general, and the program's exit capability 
in particular, and have made numerous recommendations aimed at better 
ensuring that the program delivered clearly defined and adequately 
justified capabilities and benefits on time and within budget. Today, 
as DHS embarks on yet another attempt to deliver long-overdue exit 
capabilities, these recommendations still apply. Unless the department 
implements them, it runs the serious risk of repeating the mistakes it 
made on prior exit efforts and producing similar results. Accordingly, 
we urge the department to approach its latest attempt at deploying 
mission critical exit capabilities in the kind of rigorous and 
disciplined fashion that we have recommended. If it does not, the 
prospects for having an operational exit capability will be diminished, 
which in turn will limit the department's ability to effectively and 
efficiently perform its border security and immigration enforcement 
missions.

Background
    US-VISIT is a governmentwide program intended to enhance the 
security of U.S. citizens and visitors, facilitate legitimate travel 
and trade, ensure the integrity of the U.S. immigration system, and 
protect the privacy of our visitors. To achieve its goals, US-VISIT is 
to collect, maintain, and share information on certain foreign 
nationals who enter and exit the United States; detect fraudulent 
travel documents, verify traveler identity, and determine traveler 
admissibility through the use of biometrics; facilitate information 
sharing and coordination within the immigration and border management 
community; and identify foreign nationals who (1) have overstayed or 
violated the terms of their admission; (2) may be eligible to receive, 
extend, or adjust their immigration status; or (3) should be 
apprehended or detained by law enforcement officials. The scope of the 
program includes the pre-entry, entry, status, and exit of hundreds of 
millions of foreign national travelers who enter and leave the United 
States at over 300 air, sea, and land POEs.
    The US-VISIT program office is responsible for managing the 
acquisition, deployment, operation, and sustainment of US-VISIT systems 
in support of such DHS agencies as Customs and Border Protection (CBP) 
and Immigration and Customs Enforcement (ICE). As of March 31, 2007, 
the program director reports to the Under Secretary for the National 
Protection and Programs Directorate.
    In 2003, DHS planned to deliver US-VISIT capability in 4 
increments: Increment 1 (air and sea entry and exit), Increment 2 (land 
entry and exit), Increment 3 (land entry and exit), and Increment 4, 
which was to define, design, build, and implement a more strategic 
program capability. Since then the scope of the first three increments 
has changed. The current scope is Increment 1 (air and sea entry), 
Increment 2 (air, sea, and land entry), and Increment 3 (land entry). 
Increment 4 is still intended to define, design, build, and implement a 
more strategic program capability, which program officials stated will 
consist of a series of incremental releases or mission capability 
enhancements that will support business outcomes. In Increments 1 
through 3, the program has built interfaces among existing (``legacy'') 
systems, enhanced the capabilities of these systems, and deployed these 
capabilities to air, sea, and land POEs. These first three increments 
have been largely pursued through existing system contracts and task 
orders. Increment 4 strategic system enhancements are being pursued 
through a systems integration contract awarded to Accenture and its 
partners in May 2004.
    Through fiscal year 2007, about $1.7 billion has been appropriated 
for US-VISIT. According to the Department of Homeland Security 
Appropriations Act, 2007,\3\ DHS may not obligate $200 million of the 
$362.494 million appropriated for US-VISIT in fiscal year 2007 until 
DHS provides the Senate and House Committees with a plan for 
expenditure that meets several criteria. The department has requested 
$462 million in fiscal year 2008 for the program. As of January 31, 
2007, program officials stated that about $1.3 billion has been 
obligated for US-VISIT activities.
---------------------------------------------------------------------------
    \3\ Pub. L. No. 109-295, 120 Stat. 1355, 1357-58 (Oct. 4, 2006).

US-VISIT Entry Is Operating at Most POEs
    A biometrically enabled US-VISIT entry capability is operating at 
most POEs. On January 5, 2004, the program office deployed and began 
operating most aspects of its planned biometric entry capability at 115 
airports and 14 seaports for certain foreign nationals, including those 
from visa waiver countries.\4\ As of December 2006, the program office 
also deployed and began operating this entry capability in the 
secondary inspection areas of 154 of 170 land POEs. According to 
program officials, 14 of the remaining 16 POEs have no operational need 
to deploy US-VISIT because visitors subject to US-VISIT are, by 
regulation, not authorized to enter into the United States at these 
locations. The other two POEs do not have the necessary transmission 
lines to operate US-VISIT, and thus they process visitors manually.
---------------------------------------------------------------------------
    \4\ On September 30, 2004, US-VISIT expanded biometric entry 
procedures to include individuals from visa waiver countries applying 
for admission.
---------------------------------------------------------------------------
    According to DHS, these entry capabilities have produced results. 
For example, as of June 15, 2007, it had more than 7,600 biometric hits 
in primary entry resulting in more than 1,500 people having adverse 
actions, such as denial of entry, taken against them. Further, about 
14,000 leads were referred to ICE's immigration enforcement unit, 
resulting in 315 arrests.\5\ Another potential consequence is the 
deterrent effect of having an operational entry capability. Although 
deterrence is difficult to demonstrate, officials have cited it as a 
byproduct of having a publicized capability at the border to screen 
entry on the basis of identity verification and matching against watch 
lists of known and suspected terrorists.
---------------------------------------------------------------------------
    \5\ We did not verify this information.

    Despite Expending Considerable Time and Resources, US-VISIT Exit Is 
Not Operational
    Over the last few years, DHS has devoted considerable time and 
resources towards establishing an operational exit capability at air, 
sea, and land POEs. For example, between 2003 and 2006, DHS reports 
allocating about $250 million \6\ for exit-related efforts. 
Notwithstanding this considerable investment of time and resources, DHS 
still does not have an operational exit capability. Our prior reports 
have raised a number of concerns about DHS's management of US-VISIT's 
exit efforts.
---------------------------------------------------------------------------
    \6\ As reported in the fiscal year 2005, revised 2006, and 2007 
expenditure plans. The fiscal year 2007 plan reported that of this 
amount, $53.1 million is still available as prior year carryover.
---------------------------------------------------------------------------
    As we and others have reported,\7\ the absence of a biometric exit 
capability raises questions about what meaningful US-VISIT data are 
available to DHS components, such as ICE. Without this exit capability, 
DHS cannot ensure the integrity of the immigration system by 
identifying and removing those people who have overstayed their 
original period of admission--a stated goal of US-VISIT. Further, ICE's 
efforts to ensure the integrity of the immigration system could be 
degraded if it continues to spend its limited resources on 
investigating potential visa violators who have already left the 
country.
---------------------------------------------------------------------------
    \7\ GAO-07-248 and Department of Homeland Security, Inspector 
General, Review of the Immigration and Customs Enforcement's Compliance 
Enforcement Unit, OIG-05-50 (September 2005).

Air and Sea Exit Efforts Have Not Been Managed Well
    Between January 2004 and May 2007, the program office conducted 
various exit pilots at one air and one sea POE without fully deploying 
a biometric exit capability. Throughout this period, we have reported 
on the limitations in how these pilot activities were planned, defined, 
and justified. For example, we reported in September 2003,\8\ prior to 
the pilots being deployed, that DHS had not economically justified the 
initial US-VISIT increment (which was to include an exit capability at 
air and sea POEs) on the basis of benefits, costs, and risks. As a 
result, we recommended that DHS determine whether proposed incremental 
capabilities would produce value commensurate with program costs and 
risks. We later reported in May 2004 \9\ that DHS had not deployed a 
biometric exit capability to the 80 air and 14 sea POEs as part of 
Increment 1 deployment in December 2003, as it had originally intended. 
Instead, as we mention above, the pilot exit capability was deployed to 
only one air and one sea POE on January 5, 2004.
---------------------------------------------------------------------------
    \8\ GAO-03-1083.
    \9\ GAO, Homeland Security, First Phase of Visitor and Immigration 
Status Program Operating, but Improvements Needed, GAO-04-586 
(Washington, D.C.: May 11, 2004).
---------------------------------------------------------------------------
    In February 2005, we reported \10\ that the program office had not 
adequately planned for evaluating its exit pilot at air and sea POEs 
because the pilot's evaluation scope and time line were compressed, and 
thus would not provide the program office with sufficient information 
to adequately assess the pilots and permit the selection of the best 
exit solution for deployment. Accordingly, we recommended that the 
program office reassess its plans for deploying an exit capability to 
ensure that the scope of the pilot provided an adequate evaluation of 
alternatives.
---------------------------------------------------------------------------
    \10\ GAO, Homeland Security, Some Progress Made, but Many 
Challenges Remain on U.S. Visitor and Immigrant Status Indicator 
Technology Program, GAO-05-202 (Washington, D.C.: Feb. 23, 2005).
---------------------------------------------------------------------------
    A year later in February 2006, we reported \11\ that the program 
office had extended the pilot from 5 to 11 POEs (nine airports and two 
seaports) and the time frame by an additional 7 months. Notwithstanding 
the expanded scope and time frame, the exit pilots were not 
sufficiently evaluated. In particular, on average only about 24 percent 
of those travelers subject to US-VISIT actually complied with the exit 
processing steps. The evaluation report attributed this, in part, to 
the fact that compliance during the pilot was voluntary, and that to 
achieve the desired compliance rate, the exit solution would need an 
enforcement mechanism, such as not allowing persons to reenter the 
United States if they do not comply with the exit process. Despite this 
limitation, as of February 2006, program officials had not conducted 
any formal evaluation of enforcement mechanisms or their possible 
effect on compliance or cost, and according to the then Acting Program 
Director, no such evaluation Would be done. Nonetheless, DHS continued 
to operate the exit pilots.
---------------------------------------------------------------------------
    \11\ GAO, Homeland Security, Recommendations to Improve Management 
of Key Border Security Program Need to Be Implemented, GAO-06-296 
(Washington, D.C.: Feb. 14, 2006).
---------------------------------------------------------------------------
    In February 2006, we also reported that while DHS had analyzed the 
cost, benefits, and risks for its air and sea exit capability, the 
analyses did not demonstrate that the program was producing or would 
produce mission value commensurate with expected costs and benefits, 
and the costs upon which the analyses were based were not reliable. A 
year later, we reported \12\ that DHS had not adequately defined and 
justified its past investment in its air and sea exit pilots and its 
land exit demonstration projects, and still did not have either an 
operational exit capability or a viable exit solution to deploy. We 
further noted that exit-related program documentation did not 
adequately define what work was to be done or what these efforts would 
accomplish, did not describe measurable outcomes from the pilot or 
demonstration efforts, and did not indicate the related cost, schedule, 
and capability commitments that would be met. We recommended that 
planned expenditures be limited for exit pilots and demonstration 
projects until such investments were economically justified and until 
each investment had a well-defined evaluation plan. In its comments on 
our report, DHS agreed with our recommendation.
---------------------------------------------------------------------------
    \12\ GAO-07-278.

Land Exit Efforts Have Not Produced a Viable Solution
    In January 2004, DHS committed to delivering a biometric exit 
capability by December 2005; however, we reported \13\ that program 
officials concluded in January 2005 that a biometric land exit 
capability could not be implemented without having a major impact on 
land POE facilities. According to these officials, the only proven 
technology available to biometrically verify individuals upon exit at 
land POEs would necessitate mirroring the entry processes,which the 
program reported was ``an infeasible alternative for numerous reasons, 
including but not limited to, the additional staffing demands, new 
infrastructure requirements, and potential trade and commerce 
impacts.''\14\
---------------------------------------------------------------------------
    \13\ GAO-07-248.
    \14\ US-VISIT, Increment 2C Operational Alternatives Assessment--
FINAL (Rosslyn, Va.: Jan. 31, 2005).
---------------------------------------------------------------------------
    In light of these constraints, the program office tested radio 
frequency identification (RFID) technology \15\ as a means of recording 
visitors as they exit at land POEs. However, this technology was not 
biometrics-based. Moreover, testing and analysis at five land POEs at 
the northern and southern borders identified numerous performance and 
reliability problems, such as the failure of RFID readers to detect a 
majority of travelers' tags during testing.
---------------------------------------------------------------------------
    \15\ RFID technology can be used to electronically identify and 
gather information contained on a tag--in this case, a unique 
identifying number embedded in a tag on a visitor's arrival/departure 
form--which an electronic reader at the POE is to detect.
---------------------------------------------------------------------------
    According to program officials, no technology or device currently 
exists to biometrically verify persons exiting the country that would 
not have a major impact on land POE facilities. They added that 
technological advances over the next 5 to 10 years will make it 
possible to biometrically verify persons exiting the country without 
major changes to facility infrastructure and without requiring those 
exiting to stop and/or exit their vehicles.
    In November 2006, during the course of our work on, among other 
things, the justification for ongoing land exit demonstration projects, 
DHS terminated these projects. In our view, the decision was warranted 
because DHS had not adequately defined and justified its investment in 
its pilots and demonstration projects. As noted earlier, we recommended 
in February 2007, that planned expenditures be limited for exit pilots 
and demonstration projects until such investments are economically 
justified and until each investment has a well-defined evaluation plan. 
DHS agreed with our recommendation.

Lack of Definition and Justification of Future US-VISIT Exit 
Capabilities Risks Repeating Past Mistakes
    According to relevant federal guidance,\16\ the decision to invest 
in a system or system component should be based on a clear definition 
of what capabilities, involving what stakeholders, will be delivered 
according to what schedule and at what cost. Moreover, such investment 
decisions should be based on reasonable assurance that a proposed 
program will produce mission value commensurate with expected costs and 
risks. As noted earlier, DHS funding plans have collectively allocated 
about $250 million to a number of exit efforts through 2006, but 
without having adequately defined or economically justified them. Now, 
in 2007, it risks repeating these same mistakes as it embarks on yet 
another attempt to implement a means by which to biometrically track 
certain foreign nationals exiting the United States, first at airports, 
and then at seaports, with land exit capabilities being deferred to an 
unspecified future time.
---------------------------------------------------------------------------
    \16\ See, for example, OMB Circular No. A-11, Preparation, 
Submission, and Execution of the Budget (June 2006).
---------------------------------------------------------------------------
    Based on the department's latest available documentation, it 
intends to spend $27.3 million ($7.3 million in fiscal year 2007 
funding and $20 million in fiscal year 2006 carryover funding) on air 
and sea exit capabilities. However, it has not produced either the 
plans or the analyses that adequately define and justify how it intends 
to invest these funds. Rather, it has only generally described near-
term deployment plans for biometric exit capabilities at air and sea 
POEs, and acknowledged that a near-term biometric solution for land 
POEs is not possible.
    More specifically, the US-VISIT fiscal year 2007 expenditure plan 
states that DHS will begin the process of planning and designing an air 
and sea exit solution during fiscal year 2007, focusing initially on 
air exit and then emulating these technology and operational 
experiences in completing the sea exit solution. According to this 
plan, air exit efforts will begin during the third quarter of fiscal 
year 2007, which ends in 2 days. However, US-VISIT program officials 
told us as recently as three weeks ago that this deadline will not be 
met.
    Moreover, no exit program plans are available that define what will 
be done, by what entities, and at what cost to define, acquire, 
deliver, deploy, and operate this capability, including plans 
describing expected system capabilities, defining measurable outcomes 
(benefits and results), identifying key stakeholder (e.g., airlines) 
roles/responsibilities and buy-in, and coordinating and aligning with 
related programs. Further, there is no analysis available comparing the 
life cycle costs of the air exit solution to its expected benefits and 
risks. The only additional information available to date is what the 
department characterized as a high-level schedule for air exit that we 
obtained on June 11, 2007. This schedule shows that business 
requirements and a concept of operations are to be completed by 
September 3, 2007; a cost-benefit analysis is to be completed by 
October 1, 2007; testing is to be completed by October 1, 2008; and the 
exit solution is to be fully deployed in 2 years (June 2009). However, 
the schedule does not include the underlying details supporting the 
timelines for such areas of activity as system design, system 
development, and system testing. According to program officials, more 
detailed schedules exist but were not provided to us because the 
schedules had not yet been approved by DHS.
    Further, while the expenditure plan states that DHS plans to 
integrate the air exit solution with the commercial airlines' existing 
check-in processes and to integrate US-VISIT's efforts with CBP's pre-
departure Advance Passenger Information System and the Transportation 
Security Administration's (TSA's) Secure Flight,\17\ the program office 
did not provide any documentation that describes what has been done 
with regard to these plans or what is planned relative to engaging with 
and obtaining buy-in from the airlines. Nevertheless, DHS plans to 
issue a proposed regulation requiring airlines to participate in this 
effort by December 17, 2007.
---------------------------------------------------------------------------
    \17\ The Advanced Passenger Information System captures arrival and 
departure manifest information provided by air and sea carriers. Secure 
Flight is a program being developed by TSA for domestic flights to 
prescreen passengers or match passenger information against terrorist 
watch lists to identify individuals who should undergo additional 
security scrutiny.
---------------------------------------------------------------------------
    With regard to land exit, the future is even more unclear. 
According to the fiscal year 2007 expenditure plan, the department has 
concluded that a biometric land exit capability is not practical in the 
short term because of the costly expansion of existing exit capacity, 
including physical infrastructure, land acquisition, and staffing. As a 
result, DHS states an intention to begin matching entry and exit 
records using biographic information in instances where no current 
collection exists today, such as in the case of individuals who do not 
submit their Form I-94 upon departure. According to DHS, it has also 
initiated discussions with its Canadian counterparts about the 
potential for them to collect biographical exit data at entry into 
Canada. Such a solution could include data sharing between the two 
countries and would require significant discussions on specific data 
elements and the means of collection and sharing, including technical, 
policy, and legal issues associated with this approach. However, DHS 
has yet to provide us with any documentation that specifies what data 
elements would be collected or what technical, policy, and legal issues 
would need to be addressed. Further, according to DHS, it has not yet 
determined a time frame or any cost estimates for the initiation of 
such a non-biometric land exit solution.

                    -------------------------------

    In closing, we would like to emphasize the mission importance of a 
cost effective, biometrically enabled exit capability, and that 
delivering such a capability requires effective planning and 
justification, and rigorous and disciplined system acquisition 
management. To date, these activities have not occurred for DHS's exit 
efforts. If this does not change, there is no reason to expect that 
DHS's newly launched efforts to deliver an air and sea exit solution 
will produce results different from its past efforts--namely, no 
operational exit solution despite many years and hundreds of millions 
of dollars of investment. More importantly, the continued absence of an 
exit capability will hinder DHS's ability to effectively and 
efficiently perform its border security and immigration enforcement 
mission. Hence, it is important that DHS approach its latest attempt to 
deploy its exit capabilities in the kind of rigorous and disciplined 
fashion that we have previously recommended.
    Madam Chairwoman, this concludes our statement. We would be happy 
to answer any questions that you or members of the subcommittee may 
have at this time.

    Ms. Sanchez. I actually am going to give myself a couple of 
minutes to ask a little series of questions and then turn it 
over to Mr. Bilirakis for his 5 minutes.
    You just mentioned $27 million on an unspecified plan. Can 
you go into more detail on what that is about?
    Mr. Hite. The $27 million that I was referring to was cited 
in the fiscal year 2007 US-VISIT expenditure plan. $20 million 
of that is a carryover from prior years; $7.3 of it is fiscal 
year 2007 money. The expenditure plan allocates the $7.3 to 
broad categories of activity like project management and 
contractor services. The $20 million is not allocated to 
anything specifically in that plan.
    Ms. Sanchez. And what you are saying is, this is money that 
has sort of been put in a pile that they are going to use on 
the exit part of US-VISIT but you were not able to figure out 
any detailed plan of what that plan for exit was?
    Mr. Hite. Exactly. Based on the documentation that has been 
made available to us, either the expenditure plan or other 
documentation that we have been provided.
    Ms. Sanchez. Okay. Thank you.
    Mr. Mocny, do you have a plan?
    Mr. Mocny. We do have a plan. At the time that we put that 
document together, the plans were still in formulation, but we 
do now have a very detailed set of actions that have to occur 
between now and December, 2008, in order for us to successfully 
implement that. So when that information is just making its way 
up this year to Congress, at the time we put that together, it 
was not as defined as it is now.
    Ms. Sanchez. Is it a written plan?
    Mr. Mocny. We have a written plan, various iterations of 
the written plan. The way we work over at US-VISIT, we are very 
project focused, so we put together a business plan of what we 
think needs to happen. We put those down in a document. We 
ended up with a Gant chart of activities that have to be 
clicked off as we do that.
    I think what was recognized earlier was the implementation 
of entry was done successfully on time and on budget, and we 
would make that same approach to exit as well. The same people 
and the same processes would be in place to do that. It is 
deciding what that is that we want to implement. Now we have 
decided what we want to implement for exit. Now we would follow 
our established plans.
    Ms. Sanchez. And you are sending this packet, I am 
assuming, because what you have just told me is sort of in 
different pieces. It is not really in a binder all together. 
This is the plan, et cetera. You are sending those pieces over 
to Congress when? When do I get my hands on these little 
documents?
    Mr. Mocny. We have submitted to you I believe this morning.
    In response to Chairman Thompson's request in his letter, 
he asked some very specific questions about what we are going 
to do. And whereas it won't be a great deal of detail within 
the response to those letters, it is indicating that we do have 
a plan and that we have activities that we know what we have to 
do in order for us to be successful by--
    Ms. Sanchez. You just said it is not in great detail, what 
you are going to submit because of Mr. Thompson's letter. Do 
you have a plan? Or don't you have a plan?
    Mr. Mocny. We have a plan. We do.
    Ms. Sanchez. You have a plan. And it is a written plan?
    Mr. Mocny. It is a written plan.
    Ms. Sanchez. It is a plan that, if I picked it up, it would 
be 38 pages or 458 pages, and it would have objectives, a 
timeline, money, and what you are trying to do. What if you 
fall behind schedule? A real plan?
    Mr. Mocny. Yes, it does. But I want you to understand that 
we also have to do an NPRM. We have to work with the airlines. 
And so where we have a plan to--and, as we said, make this part 
of the check-in process, we now have to have the conversation 
with the airlines to work out--
    Ms. Sanchez. Have you had that conversation with the 
airlines?
    Mr. Mocny. We have begun the conversation.
    Ms. Sanchez. When did you begin the conversation?
    Mr. Mocny. We have had actual conversations over the course 
of the last couple of months. But we have to do that formally 
through the NPRM process.
    Ms. Sanchez. You have had informal conversations with the 
airlines?
    Mr. Mocny. The airline community, specific airlines but 
also with ATA, the Air Transport Association, but also the 
International Air Transport Association as well.
    Ms. Sanchez. Over the last 2 months is when you began 
these?
    Mr. Mocny. Approximately.
    Ms. Sanchez. When did you put the plan together?
    Mr. Mocny. The plan has been evolving over the course of 
the last several months.
    Ms. Sanchez. But it relies on--at least the piece at the 
airports relies on--the airlines.
    Mr. Mocny. That is correct.
    Ms. Sanchez. So you started talking to the airlines within 
the last 2 months, but you started making this plan without the 
airlines several months before?
    Mr. Mocny. We put parts of the plan together based on the 
pilots that we ran. We understood that it had to be part of the 
travellers' experience, that we looked at several options, and 
we understand that the check--in process can offer us the most 
optimum set of locations where the airlines can take the 
biometric and give it to us. So we base a lot of our plan on 
our own experience that we have been writing for the last 3 
years and, in that course, working with the airlines as well.
    The airlines had to participate as far as the pilots were 
concerned. They had to direct individuals to find these kiosks. 
The airports had to provide signage. So whereas in some cases 
that worked very well, other cases it did not. We took those 3 
years' worth of experience and then put that together in a plan 
and outlined a plan that will evolve, and--as plans do. It will 
get more detailed as we move further along the way, as we work 
with the airlines, as we engage them and listen to them, as to 
what their business model is for the check-in process. So that 
plan becomes more and more detailed.
    Again, the formal process is with the NPRM process. We get 
their comments. We kind of ratchet that into the whole project 
plan. That changes some of the elements that we have to do. At 
the end of the day, though, we have to implement something with 
the airlines.
    Ms. Sanchez. Thank you.
    Mr. Souder for 5 minutes or whatever you want to say, 
questions you want to ask.
    Mr. Souder. Thank you.
    I apologize for missing the opening statements. I had a few 
questions regarding the land border, and I am not sure who best 
answers this.
    If I say--which we encourage millions of people to do and 
millions of people do do it and I am not criticizing this. If I 
say I am from Juarez and I am going to El Paso for dinner, do 
we have any plans to see whether you went to El Paso for dinner 
and stayed for 20 years somewhere in Indiana? Have you looked 
at that question?
    What exactly are you doing with--this is not a visa 
overstay. These are short--term passes that happens every day 
along the border, what seems to be, as we do our fencing, as we 
do different types of things along the border, an increasing 
occurrence.
    Mr. Jacksta. Sir, when people arrive at our ports of entry, 
first of all, they go through one of our primary officer 
booths. We do normally a name query of that individual. We also 
check the vehicle to see if there is anything in it. During 
that process, the officer will ask the individual questions 
about what their intentions are for coming into the United 
States, how long they expect to stay.
    On the southern border, there is the border crossing card 
that allows those individuals from Mexico to arrive, to come 
across to stay up to 30 days and to basically stay within a 
25<dagger>mile zone, except for Arizona, which is 75. But the 
officer has a responsibility to ask the individual questions. 
Based on that discussion between the officer and the 
individuals, the decision, the determination is made on whether 
further question is needed or whether there is an acceptance at 
face value that the person is telling the truth and they are 
going to a legitimate restaurant, that they are going to be 
going--returning back to Mexico when they complete their 
dinner.
    So it is a process that is in place. However, once that 
individual does go through our process and gets into the city 
of El Paso, there is no mechanism to validate whether that 
person has actually left the United States.
    Mr. Souder. And there is no mechanism to see if they have 
gone to another part of the United States?
    Mr. Jacksta. That is correct.
    Mr. Souder. And are you looking at a mechanism?
    Mr. Jacksta. Well, there is obviously--what we do along the 
various land border, southern border area, we do have specific 
stops where we have our border patrol agents who will stop 
vehicles and ask individuals for identification and determine 
if someone has basically misused their--the use of the card. We 
have the capabilities to work to make sure that individuals 
that receive an I-94 card do return. If they don't return, they 
show up on our list as individuals who have not reported for 
returning; and we determine what type of action to take based 
on risk management.
    Mr. Souder. Do you check this with law enforcement around 
the United States?
    Mr. Jacksta. The ICE, the Immigration Customs Enforcement 
officers are responsible--
    Mr. Souder. I take back the question. I really want to 
focus on the border. Do you see this as becoming part of the 
US-VISIT program, that you have an exit for this type of--I am 
going to dinner and I stayed for 20 years?
    Mr. Jacksta. I think that that is exactly what we were 
looking for to do down the road, recognizing that there are a 
lot of technology issues.
    Mr. Souder. Down the road like a year, 3 years?
    Mr. Jacksta. I would say a couple of years.
    Mr. Mocny. If I can, again, we have looked at and we have 
tested various technology that might assist us in preventing 
and uncovering what you have talked about; and, frankly, the 
technology says that we are not ready yet. But I think within a 
couple of years, as Bob suggests, we would have the ability 
probably for biographic checks. It is the challenge of 
biometrics. It is the challenge of taking a physical piece.
    Mr. Souder. It is biometrics. Without biometrics, you are 
going to have all kinds of profiling and potential 
discrimination. Biometrics are real and nondiscriminatory.
    Let me ask this question. We have just gone through a 
debate--I am sure it is not going to end with the vote in the 
Senate today--about potentially giving millions of work 
permits. I presume that somebody from the administration has 
asked you to draw up a plan to implement how you would handle 
the exit part of the work permits and the entrance part of the 
work permits. Do you have any documents? Do you have any 
question that anybody has asked you to develop that plan? Or 
was this just a pie-in-the-sky thing that a few people 
developed but haven't even talked to the people who would have 
to implement it?
    Because, clearly, that falls directly on your shoulders, 
that it could not possibly work for the employers in my 
district to have work permits without a biometric indicator. 
Because the whole problem here is, if you don't have a 
biometric indicator, you are going to discriminate against the 
many refugees and legitimate Hispanic citizens in the United 
States because you don't know who really it is. And if you 
don't have a plan, we are setting up tremendous problems of 
identification.
    Mr. Jacksta. I can tell you that I know that the Department 
is looking at exactly what would be the enforcement plan, what 
would be the protocols, what type of cards would be utilized to 
try to address those concerns.
    I am not a participant of that actual work group, but I 
know that is important to us to make sure if we move forward 
with any kind of trusted work program that there is the 
capabilities to make sure it is enforceable at our ports of 
entry.
    Mr. Souder. So the answer is, is those who are running the 
program really haven't been included in this yet?
    Mr. Mocny. Our initial focus is on the air and the sea, 
notwithstanding the challenges and the need----
    Mr. Souder. Notwithstanding the fact that we are debating 
in Congress a millions-of-people program. You are focused on a 
few, while we supposedly were having a realistic debate about 
millions. I mean, that is the frustration some of us have. And 
you have to do air and sea. It is just that incrementally 
Congress needs to be matched up with what you are actually 
capable of delivering.
    I thank the gentlelady for the extra minute.
    Ms. Sanchez. You are quite welcome, Mr. Souder.
    I now recognize Mr. Green from Texas for 5 minutes.
    Mr. Green. Thank you, Madam Chair; and I thank the ranking 
member as well.
    This is indeed a necessary hearing, and I thank the 
witnesses for making themselves available. I know that you have 
tough jobs. This is an enormous task that you have undertaken. 
So let us move quickly and talk about some of these very 
serious issues.
    Mr. Hite is with a reputable agency. I assume GAO is a 
reputable agency, as you view agencies here on the Hill. He has 
made some statements that might be considered indictments by 
some. While I would not call them indictments, Mr.Hite, out of 
respect for you and the agency, I will say that there are some 
very serious charges; and the question to each of you, Mr. 
Jacksta and Mr. Mocny, is do you agree with all that he has 
said? Mr. Mocny.
    Mr. Mocny. Mr. Hite has been with the program for----
    Mr. Green. If you would, let me just ask this of you. 
Because I have little time; and many times when a person has 
finished, I don't know if they have said yes or no. Do you 
agree--I think that is something you can say yes to--or 
disagree with what he said?
    Mr. Mocny. I agree with the recommendations he has provided 
to us.
    Mr. Green. Do you agree with his assessment?
    Mr. Mocny. I may not have used those same quotations that 
he used.
    Mr. Green. Would you agree with his assessment: 4 years, 
$250 million, no plan. Do you agree with his assessment?
    Mr. Mocny. Yes. From the information we have provided to 
GAO, I would agree that he would be able to make those 
statements because we have not provided the detail to him for 
him to evaluate the plan that we do have.
    Mr. Green. Mr. Jacksta, do you agree with his assessment?
    Mr. Jacksta. Yes.
    Mr. Green. Now if you agree with his assessment, then the 
question becomes, how can we be assured that--because he talked 
in some detail about this being deja vu all over again. How can 
we be assured that this next generation of plans will be 
something that will give us much more than the previous 
generations? Meaning that we will have something that we can 
perfect and have a system that works.
    Mr. Mocny. I will use a quote: Your past is prologue. I 
think when we apply ourselves here and we have a plan and we 
have the backing of the Department in order to execute that 
plan, then we will execute that plan.
    So when you look at what we did for entry, we have to have 
that same--we will have that same backing of the Department in 
going forward. So, therefore, I can commit to you that we will 
have a plan. There is a lot ahead to do. We have to work with 
the airlines. We have to be funded.
    Mr. Green. Given you are saying you have the plan, you just 
don't have it with you today, the question becomes what 
timeline do you have within the plan that you have that you 
don't have with you? What is the timeline within that plan for 
implementation?
    Mr. Mocny. Working with the airlines, we will have a 
biometric exit solution in place by December of 2008. That is 
the plan. In order to get to that plan, we have to do a series 
of things like publish interim reg--interim rules, we have to 
get some comments from the airlines industry, we have to 
publish final rules. But December, 2008, is when we are 
committing to having biometric exit stood up.
    Mr. Green. Now does this mean that you will have the 
genesis of the program or that you will have all of your 
regulations in place such that the program will function 
properly?
    Mr. Mocny. Again, the plan calls for a final rule to be 
issued in June of 2008.
    Mr. Green. The final rule?
    Mr. Mocny. Final proposed rule which would lay out what the 
airlines have to do, what DHS has to do. So after we go through 
an interim proposed rule, which is a comment period, we then 
take those comments from the airlines and from anybody who 
wants to comment on those proposed rules----
    Mr. Green. So in 2008 we won't have a final plan. We will 
have the beginning of the final plan?
    Mr. Mocny. In June of 2008, we will have the final plan; 
and then we have execution from June until December, 2008, with 
the--so you have complete exit control on biometrics. You have 
the air and the seaports of entry.
    Mr. Green. In December of 2008 we will have the final plan 
in place?
    Mr. Mocny. No, June of 2008.
    Mr. Green. June of 2008, and then we take----
    Mr. Mocny. Six months.
    Mr. Green. --six months to examine the final plan?
    Mr. Mocny. Correct, and have it executed. So deploy after 
starting--in June, we will then begin deploying the solutions 
so that by December of 2008 we should have the exit, the 
biometric exit, in place at the airports and the seaports where 
we would have them put in place. And some of the ones I 
mentioned within my opening testimony.
    Mr. Green. Thank you for the time, Madam Chair. I see that 
I have exceeded my time. Thank you very much.
    Ms. Sanchez. You are quite welcome, Mr. Green.
    Mr. Bilirakis, thank you for having been here from the 
start and for taking your turn. Five minutes.
    Mr. Bilirakis. Thank you. Thanks so much, and I would like 
to submit my opening statement for the record, Madam Chair to 
save time. It is in our best interest of time.
    Ms. Sanchez. So ordered.
    Mr. Bilirakis. Mr. Mocny, do you believe that establishing 
a fully functional exit and entry system, especially at land 
borders, is a prerequisite to amnesty or a temporary guest 
worker program?
    Mr. Mocny. I couldn't comment on whether or not we should 
have it in place. I think it is going to be important for us to 
be able to tell whether people leave or not, but whether we can 
commit to an exit process in place of land borders, ports of 
entry as part of the temporary worker program, that is 
currently not something I could comment on.
    Mr. Bilirakis. Okay. Anybody else want to take a shot at 
that?
    Okay, can we enforce time limitations--again referring to 
this--on such guest workers or other visa holders in the 
absence of such a system? For the panel again.
    Mr. Mocny. You can't enforce what you don't know. So if we 
don't have an exit process in place, whether that be biographic 
or biometric, you wouldn't know if in fact the person left 
other than the I-94 that we might collect.
    But I do want you to understand that we are not abandoning 
that whole process. It is just a matter of what we can do in 
the time frame of what we are talking about. So we could have a 
biometric biographic system in place potentially by working 
with Canada as if we are working with Mexico. It is not that we 
are abandoning the land border. It is simply something we can't 
sit here and testify today that this is the absolute solution 
for, whether it be biographic or biometric at this point.
    Mr. Bilirakis. Anyone else?
    Mr. Jacksta. I just wanted to point out the challenges that 
we place at the land border. I mean, I think it has to be 
recognized that the land border is an extremely difficult place 
for us to implement outbound compliance.
    Clearly, as we move forward with any type of program, we 
need to develop and look at the technologies that would be 
available. There might be opportunities for RFID, radio 
frequency cards. There might be the capabilities for 
biometrics. There might be capabilities for other methods 
working with the foreign governments, as Bob mentioned, 
Canadians and Mexicans.
    So there are opportunities to build on. But, clearly, 
biometrics would be the most secure mechanism to ensure that 
people who came into the United States leave the United States.
    Mr. Bilirakis. Okay. Next question. I mentioned in my 
opening remarks which were submitted for the record about the 
Mona Pass initiative in which the Coast Guard is using mobile 
technology to collect biometric information on apprehended 
migrants and comparing that information to the US-VISIT 
identification database to determine their identity. Would you 
briefly explain, Mr. Mocny, this effort, and the results to 
date and the potential for expanding the use of mobile 
biometrics collection as part of an exit solution?
    Mr. Mocny. Thank you. The Mona Pass, the project that you 
referred to with the Coast Guard, I think represents where we 
have applied new technologies that have come to a maturity 
stage where we can use those.
    Simply put, what we are doing with the biometric devices is 
providing to the Coast Guard who operate within the Mona Pass, 
which is in the location in between Puerto Rico and the 
Dominican Republic where people taking these yolas, which are 
basically very rickety boats to try to get into America, to try 
to get into Puerto Rico--in the past, the Coast Guard would 
intercept a boatload of these individuals, knowing that they 
had seen these people before, maybe the week before, the month 
before, but they had no basis because these people carried no 
identification or false identification. Working with the Coast 
Guard and using biometric mobile devices that they procured and 
working with our database, we now in fact in realtime, using 
satellite communications, can identify people from these boats 
to the point where they had one prosecution last year and they 
are up to 60-some prosecutions so far this year where the Coast 
Guard has indicated that the normal flow of traffic in between 
the Mona Pass is down 50 percent.
    It is a clear indication of when you apply technology that 
is matured that you could have a significant appositive effect 
on illegal migration and where this is not only the turn effect 
but a huge prosecution effect working with the U.S. attorney in 
the area.
    But this is something that we think has a lot of merit and 
a lot of application to other areas. Mobile technology will 
afford us the ability to capture biometrics and process and 
identify individuals in areas where we just can't do it today. 
Whether that actually applies into a car and land border is to 
be determined. But the idea of using mobile technology and 
applying that to the various locations we believe will have a 
very positive effect, and it has in the Mona Pass.
    Mr. Bilirakis. Okay. Thank you very much. Appreciate it 
very much.
    I yield back, Madam Chair.
    Ms. Sanchez. Thank you to the gentleman from Florida.
    Gentlemen, the report on the House Homeland Security 
appropriations bill provides $45 million in funding for TSA to 
implement the new document checker program to ensure that 
government employees and not airline employees are comparing 
passenger ID to passenger boarding. In other words, when you 
are at the airport and you are getting to security, you have 
someone checking to see whether your boarding pass matches 
whatever ID you are handing them, that traditionally has been 
an airline employee. Now they have decided they would prefer to 
have TSA employees do that.
    So at a time when we are actually doing something that 
simple, look at the person, see if the photo looks like them, 
check that name against this name, we are taking that away from 
the airline. Why would you be putting the VISIT Exit program in 
the laps of the airlines at the checkout or at the check-in 
process?
    Mr. Mocny. For two reasons, and this is part of the 
thinking that went into coming up with the check-in process, 
which the airlines in effect do that today. The airlines 
collect the I-94 departure card, the card that the foreign 
national gets when they arrive in the U.S. So they hand the I-
94 which says this is Bob Mocny and now I am leaving the 
country. They are collected by the airline employees, and then 
they are turned over to Bob's people at the end of the day 
where they are then matched and sent to a location to be 
matched against the entry documents. The departure card is 
matched against the arrival card.
    That occurs today, and one of the things that we are asking 
the airlines to do is to take another data point which is a 
finger scan of that individual. And the reason why we have set 
the check-in process, we have to make it known to travellers.
    Again, one of the things we learned within the pilots is if 
there wasn't kind of uniformity to where one checks out then 
one can often get confused; and where the TSA sounds 
attractive, it is a choke point, it is a DHS point.
    Not all TSA locations fit well into that particular 
airport. There are locations where they fit quite well, and 
there is a lot of extra space. There is airports where TSA is 
shoehorned into a particular area there. So if it can't be at 
all TSA points, it kind of can't be at any TSA points. Because 
if they are at this airport, it is at TSA; if it is at another 
point, it is behind TSA; and a third airport it is before TSA. 
Where do I go to check out?
    Ms. Sanchez. I am not saying for TSA to do it. I am saying, 
if TSA doesn't think the airlines can do a good job at doing 
that little piece, then why would you think they would be able 
to do all this other stuff? Why would an employee behind the 
counter not look at the documents, for example?
    Mr. Mocny. I don't work with TSA. But understanding these 
were contractor people that the airports would hire, perhaps it 
was the airports who would hire, it wasn't the check-in people 
that would do it themselves--I think one of the reasons that we 
again believe that this is a rather simple thing to do is what 
we are asking the airlines to do is what we have been doing for 
the last 4 years. It is tried and true. It is simply as part of 
the process where they validate the passport with which they 
have to do by regulations, they have to touch a passport for 
anybody going, you know, to a foreign location.
    So by touching the passport and validating that that is the 
person who that is, they can simply take the finger scan of the 
individual as well. It is tried and true. We have been doing it 
at 3,000 points of inspection for the past 4 years. It is 
relatively easy. It is very quick. It is very fast and 
efficient.
    So we are trying to find the best fit, not--you know, not 
just for DHS and for the airlines but also for keeping in mind 
the traveller has to be able to have some certainty as to where 
I check out. So it is a simple process for the airlines to do. 
It is simply asking for a finger scan of the individual.
    Ms. Sanchez. Mr. Souder, do you have any questions?
    Mr. Souder. I would like to ask Mr. Hite a question.
    Ms. Sanchez. Go ahead.
    Mr. Souder. I am sorry I missed your testimony, but I take 
it that you have some skepticism, given the subtleties here, 
which in and of themselves are interesting, despite spending 
considerable time and resources, US-VISIT is not operational. 
Air and sea exit efforts have not been managed well, land exit 
efforts have not produced a viable solution, lack of 
definition, justification, risk of repeating past mistakes. So 
I think those are pretty strong statements.
    Now, in the discussion, first on air, just briefly, it 
seems to me that when a person checks in at the airport that we 
would immediately have some kind of a computer system. We have 
had this question about the land border and the TB person. 
Isn't there a central check-in place where you just put your 
finger down and it would immediately trigger whether the 
person--not just at the airlines--the question of the backup, 
why isn't there a U.S. Government backup system that catches 
when somebody moves in or out? Is that technologically not 
possible, what I am asking? Or is it just--what kind of 
investment are we looking at?
    It seemed to me that, for example, our national targeting 
center should have known immediately the person who had TB was 
crossing the border crossing. The technology moves immediately 
through the air. It is not like it takes 3 days to float your 
check anymore.
    Mr. Hite. Yes, sir I appreciate the question. I submit it 
is probably a better question to pose to the Department, as 
opposed to GAO.
    Mr. Souder. What I am wondering is, is do you think that 
they feasibly could do something like that? Or have you seen 
anything like that?
    Mr. Hite. I have not seen anything like that. Based on my 
knowledge and experience, I don't think it would be 
technologically challenging. It may be operationally 
challenging. I am not an expert on airport and airline 
operations.
    Mr. Souder. You have suggested some doubt, and you heard 
today that they are hoping to have this airport procedure 
operational in December, 2008. Do you think that is realistic?
    Mr. Hite. I haven't seen anything to give me any confidence 
to show that that is realistic. Throwing out dates like that 
are nice to have as goals. Having meaningful dates that you 
intend to meet are generated by virtue of the fact that you 
thought through them systematically, what is it going to take 
to get us there? And you build those kind of schedules on a 
bottom-up basis. And therefore you have some confidence that 
you can in fact meet that.
    There are too many unknowns that haven't been answered yet, 
in my view, to even have any confidence as to an end date on 
this thing, the least of which is gaining the airlines' 
cooperation on this proposed solution. So I don't think they 
are at the point yet where they could give you a good hard date 
that they would actually--I think if I was in their situation--
would want to be held accountable to.
    Mr. Souder. Wouldn't you say, similar, that for the DHS or 
the Senate or anybody in the House to say that a land border 
entry/exit strategy would be in place in 3 to 5 years is a tad 
optimistic goal as opposed to a realistic implementation 
strategy?
    Mr. Hite. All I can say is based on everything that I have 
seen, I haven't seen anything that would give me the basis for 
that. It certainly can be a stated goal, but there is a 
difference between a goal and a schedule that has been defined 
in a rigorous and disciplined fashion.
    Mr. Souder. Thank you. I appreciate that. And in all 
fairness to US-VISIT and to DHS, part of the problem is one of 
the variables here is the United States Congress. And they 
state their goals, but they may not have adequate money with 
which to implement their goals. And if we are going to be 
realistic about what is the difference between a goal and an 
implementation strategy, we have to make sure there is adequate 
money for the technology. And we have to make sure there is 
adequate money for the development of these procedures, for the 
hiring of people to implement it. And we have been a tad 
inconsistent on our side, and then saying why isn't it being 
done? But to do that the administration has to actually come 
forward with realistic numbers and say, look, this isn't a 
couple of billion dollars. We are looking at systems that are 
incredible amounts of money. And probably that can't be done in 
a very short period. It is going to take a little bit.
    I yield back.
    Mr. Cuellar. [Presiding.] Thank you, Mr. Souder.
    At this time I will recognize the gentleman from Texas, Mr. 
Green.
    Mr. Green. Thank you, Mr. Chairman. And I would thank the 
Ranking Member for his last comments. I do think that we need a 
greater degree of cooperation from the administration in terms 
of what is realistic and with the numbers. And I compliment you 
and I thank you.
    Just quickly, if we use biometric detection at the counter 
with the airline employee--is that what we were talking about, 
at check in?
    Mr. Mocny. We are looking at the check-in process. And so 
unless that happens at the counter--they are moving to kiosks 
as well. And so we want to look at how we might implement a 
finger scanner at the kiosk.
    Mr. Green. At the point you are using the biometric 
detection, I assume that the visitor will receive some sort of 
document at this point if this proves to be the person, the 
correct person.
    Mr. Mocny. That is what we used for the pilot. There was a 
receipt that was printed out. But what we would like to be able 
do is work with the airlines to incorporate that into the 
boarding pass process. So the boarding pass would in fact be a 
receipt that says this person now has had their document 
checked as appropriate and has a finger scan.
    Mr. Green. What if that person does not immediately, if we 
were at an airport, board a plane? The person then has the 
freedom to move about through the airport before boarding the 
plane?
    Mr. Mocny. That is correct.
    Mr. Green. What then prevents the person--and I am sure you 
have the answer, I just don't see it--what prevents a person 
from giving this document to another person, who has some 
fraudulent ID, and then boarding the plane, if you have already 
now had your biometric detection and you have given the person 
freedom of mobility?
    Mr. Mocny. We have asked ourselves that question. In fact, 
during the pilots, we actually tested the ability to validate 
someone who had already gone through the finger-scan process. 
So there is technology that would allow a secondary scan to 
take place at the boarding gate. There is other technology that 
would allow us to vet the name of the people. When they close 
out the final record, the Departure Control System, there is a 
list of people who actually boarded the plane. We can vet that 
name with the fingerprints and the names taken at the time that 
they were finger-scanned at the counter, at the kiosk. But even 
those are the details that we want to work with the airlines to 
find the best that fits into--the best model that fits into 
their business model as well.
    Mr. Green. Your paradigm creates a certain amount of 
dubiety, it creates a certain amount of consternation, because 
the question becomes why perform what is the best check at the 
check-in, and then some secondary or tertiary that is not the 
best? Why not perform the best check at the point where the 
person is about to board the plane, as opposed to at the point 
of checking in?
    Mr. Mocny. Again, you raise all very good and valid points. 
We have got these three basic areas where we see people: at the 
check-in, at the TSA, and at the boarding gate. The airlines 
have been very successful in getting DHS away from the boarding 
gate when TSA was doing secondary checks and messing up their 
boarding process, and delaying planes and stuff.
    Mr. Green. I understand, but we have a country to protect. 
And I respect the opinions of the airlines, but the best place 
to check the person for boarding a plane is at the point where 
the person is about to board the plane. That premise is almost 
undeniable. Would you agree?
    Mr. Mocny. I wouldn't disagree, other than when you say 
``the best''; it is an issue of there are--we have to factor 
in, in anything that we do, the economic effect that we have on 
what the industry does. And in fact, yes, we have to protect 
America, but we also have to respect the fact that we have an 
airline industry that moves millions and millions----
    Mr. Green. Won't you have the same problem at the check-in 
that you will have at the boarding point? How does it differ at 
the boarding point as opposed to the point of checking in? How 
does it differ in terms of time?
    Mr. Mocny. We ask people to show up for check-in at least 2 
hours, 2-1/2 hours before they go international. Generally at 
the boarding gate you have a half an hour, as few as----
    Mr. Green. But the biometric read is something that takes 
less than 5 seconds. You do the biometric read, you have your 
boarding pass, you enter.
    Mr. Mocny. Right.
    Mr. Green. Okay. I have been to Singapore, where they use 
these biometrics. In fact, I believe the Chairlady was--were 
you on that codel to Singapore? Okay. They do this. And they 
have people who walk through and they scan and it happens 
almost instantaneously. And it is a very, very expedited 
process. Very much so. I am really appealing to you to consider 
the best point of detection at the port of entry to the plane 
or to the ship or to wherever it is the person is going to--
whatever vehicle the person will traverse. It just seems to me 
that giving the person a license to roam freely, after having 
gone through detection, gives a person also the license to 
fraudulently board, or give someone else the opportunity to 
fraudulently board an aircraft.
    Mr. Mocny. And I appreciate that. And we will take all 
those issues into consideration. I think, as we say, the check-
in process, we want to hear from the airlines what is the 
check-in process of the future? How do you take the individual 
from outside the airport to getting on board the plane? And so 
we want to understand all those different steps along the way. 
And whatever is the best for the security of the U.S. and works 
with the airlines and works for the travelers so they are not 
confused, we want to implement those programs.
    Mr. Green. Thank you, Madam Chair.
    Ms. Sanchez. [Presiding.] Thank you, Mr. Green. And I will 
recognize Mr. Cuellar for 5 minutes.
    Mr. Cuellar. Thank you, Madam Chair. Three sets of 
questions.
    First question has to do with the deadlines. I think, Mr. 
Hite, you mentioned about having realistic--and this applies to 
all three of you. But you have the agency that has a particular 
idea of what certain timetables should be. Then you have 
Congress that has a certain idea of what the timetables should 
be, a date line as to when we ought to implement a particular 
project, or in this case talk about US-VISIT Exit. How should 
we try to work closer together to try to come up with something 
more realistic? Because I mean anybody could say do it by 
January 5th of 2008 no matter what. Whether that is realistic 
or not, you know, that might be questionable. But how do we 
work out something where we could try to get more realistic 
dates, taking everything into consideration? But then at the 
same time--I mean I know you got to look at, well, how do we 
implement this--but at the same time we get the outside 
pressures saying we got to provide something for the security 
of the Nation.
    What is your thought process on how we ought to come up 
with a more realistic timetable when we are working on 
legislation? Whoever wants to go first.
    Mr. Mocny. I think by having the back and forth that we 
have been having, and by asking for reports that basically say 
understand the complexity of what you have to do, Congress says 
you have to do X by--and sometimes not by a certain date. We 
have never been given a date certain to do exit. When we were 
given a date certain to do entry, December 31st, 2003, 2004, 
2005, we met or beat every one of those dates. Those were often 
seen as perhaps not realistic, but we applied ourselves, and we 
applied resources, and we were able to get those dates met. So 
I think, then, now having--and with entry I want to say it was 
easy. That is using the term a little bit loosely. Exit, we 
don't have the infrastructure. That is part of the issue. You 
don't have booths, manned, staffed booths that Bob has. So with 
exit we have to create that infrastructure or utilize the 
infrastructure that is out there.
    So by having us look across the board and saying here is 
the challenge, and here is what we don't have, here is what we 
think we need to do, coming back to the Congress and submitting 
a realistic plan. I think we suggested that with the land 
border. I think we are here basically committing, saying it is 
not possible in our minds to come up with a biometric solution 
for the land border at this point. But should we study that and 
look at what is possible and when is that possible?
    So I think we have enough information and enough experience 
in our history to say this is possible, this is not possible. 
And that is why we are pretty confident saying biometric exit 
at the land border is not possible within 2 years. Biometric 
exit within the airports within 2 years we believe is possible, 
and the cruise lines. We have that history.
    So by having a dialogue, or whether it is reports sent up, 
or having your able staff up here working with us, then we are 
able to craft the appropriate legislation and the appropriate 
appropriations to be able to fund this. Because that is the key 
to any of this, as Congressman Souder mentioned, is the funding 
behind what we have to do. And so I would simply say continue 
the dialogue. And sometimes if it is in the form of a formal 
report, which we are happy to do, that we kind of outline what 
our plans are.
    Mr. Cuellar. So this type of oversight hearing, or informal 
meetings with staff, or whatever, those type of communications 
would be very helpful?
    Mr. Mocny. They have been very helpful to us for the past 4 
years, absolutely.
    Mr. Cuellar. Good. Because I can give you examples of 
passport issues. As you know, we saw what happened. And then of 
course there is US-VISIT Exit also. And then not even getting 
into the land portion. I don't want to go into that. You know 
how I feel about that. But yeah, we just need to continue 
having this type of dialogue. Because I mean, I am not the type 
to say just set up a timetable, so once we get to it, it wasn't 
realistic, and then we have to delay it again for another 
period of time. So we appreciate it if you could just continue 
working with the committee to help us on this type of a 
timetable.
    Mr. Mocny. Absolutely.
    Mr. Cuellar. I got about 50 seconds. Mr. Jacksta or Mr. 
Hite, any thoughts on that? How do we establish that 
communication to make sure we get realistic timetables?
    Mr. Hite. Yes, sir. What I would offer is on any program, 
what you are trying to do is to introduce a certain capability. 
And that capability is functions, and it is how well you 
execute functions by a certain time at a certain cost to 
produce a certain benefit. All four of those legs on that table 
need to be balanced against one another. Because if you give me 
less time, I can give you less capability and less benefit. And 
maybe I will get it done cheaper. But it all depends upon what 
you want. And that is why there needs to be agreement around 
what is the outcome we are trying to achieve. If the outcome is 
the important thing, which I think it is, it drives capability, 
it drives timelines, it drives cost. And then you can make an 
informed judgment as to whether or not that outcome is worth 
the cost. I would approach it that way.
    Mr. Cuellar. You are right. The result is what we are 
interested in. You know, what sort of inputs we put in, and we 
determine that. But my time is up.
    Mr. Jacksta. Can I just answer? You asked----
    Mr. Cuellar. Yes.
    Mr. Jacksta. --a question. I just want to say we are 
working on this. One of the things that is extremely important 
for us is to have this dialogue and to be here. Although at 
times it can be painful, it is good to have a discussion about 
what some of the issues may be. And we have had a number of 
discussions with your staffs about what we are trying to do on 
this. We have had a number of discussions with the carriers. We 
have had a number of discussions with the stakeholders on the 
land border.
    This is a complex issue that we make every effort to hear 
about what we can do to make it work for both of us, because it 
is a mutual concern. We all want to have security. We want to 
all have facilitation. How we get there is built on those 
discussions that take place. And so I know why we were so 
successful with the entry part of it was we did those 
discussions, we did have the outreach efforts. And we will 
continue to do that.
    Mr. Cuellar. Thank you. Thank you, Madam Chair.
    Ms. Sanchez. I thank the gentleman.
    Mr. Hite, before we let you go, your report is pretty sad, 
actually. And throughout the report you continue to state 
pretty much that there doesn't seem to be a cost-benefit 
analysis really going on, that there is no justification for 
the money spent, that the end product never gets there, or, you 
know, going back to your whole idea of what are you spending 
your money on and the whole accountability issue.
    Is that because the Department wasn't forthcoming with 
enough information for you to determine whether they had made 
plans, hit milestones, or is it because they don't seem to have 
plans to be able to hit milestones? That they are sort of just 
groping in the dark?
    Mr. Hite. The short answer is yes, I think it is a 
combination of both of those. We have seen an absence of 
definition, frankly, with entry as well, but primarily with 
exit as to what are you going to deliver. What capability? What 
kind of functionality? How well is it to perform? By when? At 
what cost? And to achieve what outcomes? And how are you going 
to measure whether or not you are achieving those outcomes? And 
before you proceed, is it worth it? Is the solution that you 
are proposing to give these capabilities, is it worth the 
investment? Or is there another solution that is more cost 
beneficial?
    These are all principles that are applied to any new 
program that you are developing. Frankly, it is a principle you 
apply to any investment an individual is going to make in their 
home, or any individual who is a business owner is going to 
make. You invest in something to provide value, so you need to 
know what that value is going to be. And you need to be able to 
know how much it is going to cost you over the intended life 
cycle and when it is going to get done. And so what we found--
and the testimony that you described was sad--has been a 
pattern of that over the course of US-VISIT. We have said it is 
difficult to hold the Department accountable for US-VISIT 
because it has never really been clear what US-VISIT is or what 
US-VISIT will be when it grows up.
    So, again, the answer is it has been a combination of the 
two, the lack of definition, and then what we--in sharing with 
us what definition does in fact exist, and what we have seen, 
limitations in that.
    Ms. Sanchez. Thank you, Mr. Hite.
    Going back to Mr. Mocny just for the last question, we 
talked earlier about how you have a plan, you have a plan, the 
Chairman sent you a letter and he sent, you know, various 
questions. And now you say you have a plan that is in writing. 
It is certainly not in a binder all together. It seems to be 
pieces from what I could get out of your testimony earlier to 
me. I have your response back to the Chairman here. It is sad 
also, by the way, this response.
    So my question to you--I assume you read the GAO report 
that Mr. Hite and the GAO put out?
    Mr. Mocny. Is this the GAO report on the US-VISIT spend 
plan? I am not sure I have.
    Mr. Hite. I believe you are referring to our testimony?
    Ms. Sanchez. Prospects for Biometric US-VISIT Exit 
Capability Remain Unclear.
    Mr. Hite. Today's testimony.
    Mr. Mocny. I have not seen the report, no.
    Ms. Sanchez. You have not seen the report. I would ask you 
to take a look at page 10 when you go back. You don't need to 
now. But one of the things that Mr. Hite and his group says is 
that no exit program plans are available that define what will 
be done, by what entities, and at what cost to define, acquire, 
deliver, deploy, and operate this capability, including plans 
describing the expected system capabilities, defining 
measurable outcomes, identifying key stakeholders, roles, 
responsibilities. The list goes on and on, life-cycle costs, et 
cetera, et cetera.
    I think I agree with Mr. Hite. I think this is the kind of 
plan that we want to see on this committee. So his description 
of what he thinks would be a good plan sits squarely on page 
10. I hope you will go back and read the report, and that when 
we get your plan that it answers to that. Thank you, gentlemen, 
for testifying before us today.
    And I welcome the second panel of witnesses. Our first is 
Mr. James May, President and Chief Executive Officer of the Air 
Transport Association. Prior to joining ATA, Mr. May served as 
Executive Vice President of the National Association of 
Broadcasters. He has held a variety of other senior positions 
in public affairs and government relations. Welcome, Mr. May.
    And our second witness will be Ms. Ana Sotorrio, Associate 
Director for Governmental Affairs for the Miami-Dade Aviation 
Department, operator of the Miami International Airport and 
four general aviation airports. And she directs the 
department's legislative and regulatory affairs at the local, 
State, and Federal levels. She also serves as the chair of the 
Airports Council International-North America Facilitation 
Group.
    So, without objection, the witnesses' full statements will 
be inserted into the record. And I will now ask each witness to 
summarize his or her statement for 5 minutes. Tell us what you 
think is most important.
    Ms. Sanchez. We will begin with Mr. May, please.

   STATEMENT OF JAMES C. MAY, PRESIDENT AND CHIEF EXECUTIVE 
               OFFICER, AIR TRANSPORT ASSOCIATION

    Mr. May. Thank you, Madam Chairwoman, and thank you, 
Ranking Member Souder. We appreciate the opportunity to be here 
today. As you know, Congress' mandate for the Federal 
Government to collect information on visitors departing from 
the United States isn't new. In 1996, Congress first directed 
the government, I would point out, to develop an automated 
entry and exit control system to collect biographical 
information on visitors arriving in and departing from the 
United States.
    As you might not know, today is not ATA's first appearance 
on this subject. In January of 2004, following yet another 
congressional mandate for the Federal Government to collect the 
information, including at that point biometrics on arriving and 
departing visitors, I complimented DHS and the US-VISIT program 
on the US-VISIT Entry program. Those compliments I think are 
well deserved. As they have in many other contexts, DHS and the 
airlines, worked together to implement that entry program in a 
collaborative, systemic process. And without a doubt, the 
government's successful operation of entry at 115 different 
airports is due to that collaboration.
    Now, in 2004, after having had limited involvement with the 
exit pilot programs, I urged the continuation of this 
partnership. Airlines were looking forward to working with DHS 
on exit. DHS, however, chose not to consult further with ATA or 
the airlines, and not to even share the results of the exit 
pilot programs. Now, despite their assurances, there was no 
government-industry partnership from the conclusion of those 
pilot programs in December of 05 through December of 06. Then 
in January of this year there was sort of a rapprochement, if 
you will, and we were told again, sure, we are going to work 
with you. Unfortunately, we learned in March that DHS had made 
a unilateral decision, and that was that airlines, not the 
government, would collect biometrics at check-in counters. They 
explained the decision fit the DHS business plan.
    I think it is unfortunate for a couple of reasons. Number 
one, in addition to noting their sort of unexplained failure to 
continue consulting with us, there are two principal issues. 
First, you and the Congress have made it abundantly clear six 
times since 1996 that you want the Federal Government to 
implement this program. They do it with the entry program. They 
do it with all sorts of border control activities. It is a law 
enforcement function, and it ought to be the government that 
executes this plan. After all, DHS and its counterparts are the 
relevant agency. Further, I think the exit process should 
mirror the entry process. Now, our second objection relates to 
our business plan.
    Years ago the airline industry adopted a business model 
that focuses on moving passengers away from the ticket counter 
and in unnecessary procedures. The goal was and is today to 
facilitate passengers processing, making check-in processes as 
efficient and seamless as possible. Today, due to considerable 
investment by airlines and obvious time savings, over 30 
percent of all of our passengers check in electronically. And 
that number is growing every day.
    Kiosks are just an interim step in the process. Kiosks are 
an interim step in the process, and are going to disappear from 
airports, as passengers check in via cell phones, PDAs and home 
computers.
    Now I am showing you what amounts to--it is hard to see 
from this distance--a bar code on my Treo. I can receive that 
electronically. I can let it get scanned at the check-in point, 
the security checkpoint, I can let it get scanned again at the 
gate. And, boom, I am taken care of. That is the kind of 
technology that we are working on. We are exploring ways that 
allow passengers like each of you and all of your colleagues, 
as you are crossing the 14th Street Bridge and you are racing 
to catch that plane because you want to get back to the 
district for the weekend, to check in via cell phone or your 
Treo.
    And if, as DHS proposes, passengers are required to forget 
all this wonderful new technology, go to the ticket counter, 
and at that point the airlines themselves are required to 
collect biometrics during the check-in process, then this whole 
efficient, seamless off-airport passenger check-in is going to 
disappear. And I promise you, for any of you who have been to 
the check-in counters, Dulles Airport, National Airport, I am 
sure Miami-Dade, the lines can be long and very, very 
cumbersome.
    In closing, let me make one final salient point. We have 
invested millions of dollars reconfiguring our systems to 
comply with the program you heard about earlier, Advanced 
Passenger Information, APIS, and on passport reconciliation 
requirements to collect biographical data on passengers. We are 
committed, in working with DHS, to spending millions more on 
implementing what is called AQQ and Secure Flight, two more 
programs.
    Finally, we are preparing to invest even more on wireless 
technologies, as I have just demonstrated to you, to collect--
to supplement all of the biographical information that we are 
currently collecting and sharing with DHS and its many 
agencies. So we don't oppose the US-VISIT program. We want to 
collaborate and continue to collaborate with DHS as possible. 
But we want it to be done in a way that makes sense for all of 
us. And quite frankly, the easiest, simplest place to have it 
be the government that does it and have a one-stop shopping 
center is to do it at the checkpoint. Thank you.
    Ms. Sanchez. Thank you, Mr. May.
    [The statement of Mr. May follows:]

                   Prepared Statement of James C. May

    Madam Chairwoman and members of the subcommittee, thank you for 
providing me the opportunity to appear before you today to discuss the 
US-VISIT/Exit Program.
    This is the second decade of the congressional mandate to the 
executive branch to develop a system to record the entry and exit of 
foreign visitors. Congress has repeatedly signified in half-a-dozen 
laws since 1996 that this system was to be a governmental 
responsibility. Indeed, until only a few months ago, the Department of 
Homeland Security (DHS) had acted accordingly. The indications of that 
have been unmistakable. US-VISIT/Entry, which was implemented in early 
2004, is an entirely governmental program. Moreover, the recently 
concluded US-VISIT/Exit Pilot Program was also exclusively 
governmental.
    DHS and the airlines closely collaborated in developing both the 
US-VISIT/Entry Program and the US-VISIT/Exit Pilot Program. We 
repeatedly offered to work with DHS to develop a permanent US-VISIT/
Exit Program and were assured that we would have the opportunity to 
continue our collaboration with DHS. We looked forward to that. Those 
pledges, however, have not been fulfilled. DHS recently informed us 
that it had decided, regrettably without prior consultation, to require 
airlines to collect the biometric information for US-VISIT/Exit.
    This is very bad news for airline customers and it will get worse 
for them in the future. Airlines are increasingly offering their 
customers the opportunity to check in before they get to the airport, 
through online and other communications technology. Customers 
appreciate the ease of pre-airport check in and, consequently, airlines 
are working to minimize airport-based transactions. This is 21st 
century customer service--more precisely, customer-demanded service. 
DHS, in contrast, envisions a system of continued airline physical 
interaction with every customer at the airport. This is not where the 
airline industry is headed, and the gulf between the capabilities of 
emerging technology and the retarding effect of DHS policy will only 
widen over time. The industry should not be forced to abandon its 
broadening efforts to harness technology that promises to ease the air 
traveler's experience.
    In January 2004, I testified before the then-Subcommittee on 
Infrastructure and Border Security just as US-VISIT/Exit was beginning 
to be tested at 12 airports-of-entry around the United States. I said 
at that time, and reiterate today, that the Air Transport Association 
(ATA) members support the Department of Homeland Security in its 
efforts to create and implement US-VISIT.
    I also said then, and reiterate today, that airlines should not be 
involved in the collection of biometric data for the exit element of 
the program. That position is faithful to a decade-long congressional 
design that the government be responsible for both exit and entry 
information collection, and it will assure airlines the freedom to 
develop even more innovative ways to improve passenger check in.

Legislative History of the Entry/Exit Information Collection System
    The entry/exit information collection system has always been a 
federal responsibility, dating back to when Congress first assigned the 
task to the Attorney General in the Illegal Immigration Reform and 
Immigrant Responsibility Act of 1996 (Public Law No. 104-208) 
(``IIRIRA''). Section 110 of IIRIRA directed the Attorney General to 
develop an automated entry and exit control system to collect the 
records of arrival and departure from every non-U.S. citizen entering 
and leaving the United States. This automated system would match the 
arrival records with the departure records, enabling the Attorney 
General to identify visa overstays. In addition, the automated system 
was expected to report on the number of departure records collected by 
country of nationality, the number of departure records matched to 
arrival records by country of nationality and classification as an 
immigrant or nonimmigrant, and the number of travelers who arrived as 
nonimmigrants, or under the Visa Waiver Program, who failed to depart 
the country at the end of the authorized period of stay.
    In June 2000, Congress amended Section 110 of IIRIRA in the 
Immigration and Naturalization Service Data Management Improvement Act 
(Public Law No. 106-215) (``DMIA''), which set forth specific dates and 
other requirements for the Attorney General to follow in introducing an 
automated entry/exit system. In addition, DMIA mandated the 
establishment of a task force comprised of both government and private-
sector groups to evaluate how the Attorney General could effectively 
carry out Section 110 of IIRIRA and how the United States could improve 
the flow of traffic at its ports of entry through enhancing or 
modifying information technology systems. ATA was appointed to this 
task force by the Attorney General.
    In October 2000, the Visa Waiver Permanent Program Act (Public Law 
No. 106-396) was enacted. It directed the Attorney General to develop 
and implement an entry/exit control system for Visa Waiver Program 
travelers.
    Following the events of 9/11, Congress enacted the USA PATRIOT Act 
(Public Law No. 107-56) in October 2001. Sections 414 and 415 of the 
Act specifically addressed visa integrity and security, and the 
participation by the Office of Homeland Security in the entry/exit 
development and implementation process. In addition, the PATRIOT Act 
added two considerations: the ``utilization of biometric technology'' 
and ``the development of tamper-resistant documents readable at ports 
of entry'' to the entry/exit process.
    Finally, in 2002, Congress enacted the Enhanced Border Security and 
Visa Reform Act (Public Law No. 107-173), which reiterated the 
requirements of the PATRIOT Act for an entry/exit process and directed 
the Attorney General to fund the development and implementation of the 
program.
    Each of these acts unmistakably contemplated that the executive 
branch would be responsible for exit duties. None specified that the 
airline industry was to be brought into that process. Given the urgency 
with which Congress has approached the issue of entry and exit 
information collection, most recently expressed in section 7208 of the 
Intelligence Reform and Terrorism Protection Act of 2004 (Public Law 
No. 108-458), that is a very telling omission. DHS--quite simply--does 
not have a congressional mandate to force airlines to assume a function 
that Congress for over a decade has intended federal border control 
authorities to perform.

US-VISIT
    Following the creation of the Department of Homeland Security, the 
responsibilities of the Attorney General to develop and implement an 
entry/exit program transferred to DHS and the Undersecretary for the 
Office of Border and Transportation Security, Asa Hutchinson. Under his 
leadership, the US-VISIT Program Office began development and 
deployment of Entry.

    US-VISIT Entry: In my January 2004 testimony, I complimented DHS, 
the US-VISIT Program Office and the Bureau of Customs and Border 
Protection (CBP) for working together and cooperatively with the 
airline industry to implement Entry. Their attention to careful 
planning, in full consultation with all interested parties was first 
rate.
    My January 2004 testimony also emphasized the need for DHS to 
adhere to the planned schedule for deploying US-VISIT at the northern 
and southern land borders. Though DHS has implemented Entry for those 
border crossers who are sent to secondary, deploying an Exit strategy 
has been postponed for the foreseeable future. While we are pleased to 
work with DHS and our national security leaders to participate in these 
programs, until US-VISIT--both Entry and Exit--is deployed nationwide 
at all border crossings, the system will not be optimally effective in 
enhancing our national security.
    The inability of DHS to fully deploy US-VISIT at our land borders 
raises an important overall question. Why insist on the collection of 
biometrics at all, if DHS will never truly be able to cross reference 
who is entering and leaving the United States through this program? 
Airlines are already required by law to transmit biographical passport 
information to DHS for every arriving and departing international 
passenger. If these records are accurately matched--which I believe DHS 
is doing today--doesn't this satisfy the need to know who is 
overstaying their visas?
    US-VISIT Exit: As with the entry process, we appreciated the open 
communications we had with DHS in the development and deployment of the 
Exit Pilot. Unfortunately, the Exit Pilot was never developed with the 
same rigor as was used to develop and deploy Entry. Rather than rely on 
a mandatory process analogous to Entry, DHS designed the Exit Pilot as 
a voluntary program, assuming departing foreign visitors would know 
that they were expected to either locate on their own randomly placed 
airport kiosks and ``checkout'' or have US-VISIT employees collect the 
biometrics using a handheld device at departure gates as passengers 
were trying to board a departing flight.
    After almost two years of testing at twelve airports, DHS was 
supposed to share its Exit Pilot Report with the airline industry. We 
understand that such a report was sent to the Secretary of DHS in 
December of 2005.
    We are still waiting to see that report.
    After almost a year of silence, ATA was contacted in December 2006 
and told that DHS was ready to begin discussions with the industry to 
jump-start the US-VISIT/Exit process. In January of this year, ATA was 
invited to participate in an industry wide meeting hosted by US-VISIT, 
CBP and the Transportation Security Administration (TSA) to discuss how 
DHS could work in partnership to develop an Exit solution that would 
meet the legislative mandates but fit within the industry's evolving 
business processes. The assurances of cooperation we received at the 
January meeting were emphasized several more times in subsequent 
meetings.
    After specifically being told that DHS/US-VISIT would be seeking 
our input, we learned that DHS had made a unilateral decision to force 
the airlines to collect a biometric within our check-in process. In 
addition, DHS advised the industry that it planned to issue a Notice of 
Proposed Rulemaking (NPRM) to offload its responsibility for this 
program to the airline industry. In choosing that course, DHS has 
disregarded the two-year-long Exit Pilot Program by selecting an option 
that it has never tested.
    DHS says that this unilateral decision was made because it best 
fits into a ``business plan.'' Who's business plan? What criteria were 
used to make this decision? Was Congress consulted prior to the 
decision being made? Why wasn't the industry consulted?
    Moreover, DHS claims that it has been consulting with the airline 
industry and that they are working with us to develop an Exit strategy. 
Regrettably, this is not the case. Perhaps had that occurred, we would 
not be here today.

Airline Industry Passenger Service Concerns
    In addition to its unexplained departure from clear, unbroken 
legislative policy, DHS' decision will impose new burdens on airlines 
and their customers at airports, at a time when carriers are working 
hard to simplify, and thereby ease, passenger check-in processes. The 
check-in process of today is not static; it is evolving and 
increasingly migrating away from the airport setting.
    Today, approximately 30 percent of passengers check in online and 
that proportion is growing. Because of its popularity and efficiency, 
airlines are implementing procedures and spending significant revenue 
to expand their off-airport check-in capabilities to include the use of 
PDAs and cell phones.
    Injecting an at-airport physical process, which the DHS decision 
will do, into this customer-driven, electronic environment will be a 
costly step backward for both passengers and airlines. This will create 
lengthier lines at airline check-in counters and kiosks, which will 
mean delays for customers, irrespective of their citizenship.
    DHS says that collection of the biometrics at check in will only 
add one or two seconds to the check-in process. This calculation does 
not track the experience of collecting biometrics during the Entry 
process, which takes between 10 to 15 seconds when it is being 
preformed by a trained CBP officer. Outbound air travelers, of course, 
will not possess that expertise.
    Finally, and perhaps more importantly, the U.S. government will be 
abdicating its role in the immigration/security process and, thereby, 
jeopardizing the integrity of that process.

    Possible Alternative
    DHS' decision to forgo employing either of the methods that it 
tested in the Exit Pilot Program complicates the situation. 
Nevertheless, a solution is readily available to DHS. Some point in the 
security screening at the airport of a departing foreign visitor offers 
the most logical location for collection of biometric information. The 
Transportation Security Administration has been responsible for 
screening for over five years; the agency has complete control over it. 
TSA has presumably examined the most efficient ways to adjust that 
process. Adding biometric information collection to that process can be 
accomplished seamlessly. Indeed, TSA's plan to assume control of 
identification document and ticket verification at airport security 
check points would facilitate the speedy processing of passengers 
subject to the US-VISIT/Exit Program.
    ATA's support for an Exit solution designed in conjunction with TSA 
security screening dates back to our appointment on the Data Management 
Improvement Task Force. In the December 2002 DMIA Task Force Annual 
Report to Congress, the Airport Subcommittee Report specifically states 
that ``the passenger exit process, which will be a new component of 
U.S. international travel, must be given consideration specific to its 
operational impact on aviation and existing facilities.'' That 
observation is as pertinent today as it was four and a half years ago.

Conclusion
    ATA and its member airlines support a US-VISIT exit strategy that 
will enhance the U.S. immigration process, while at the same time not 
jeopardizing airline business developments intended to improve the 
travel experience for passengers.

    Ms. Sanchez. And now Ms. Sotorrio.

   STATEMENT OF ANA SOTORRIO, ASSOCIATE DIRECTOR, GOVERNMENT 
            AFFAIRS, MIAMI-DADE AVIATION DEPARTMENT

    Ms. Sotorrio. Thank you, Chairwoman Sanchez, and Ranking 
Member Souder, for the opportunity to testify today on this 
important subject. I am appearing today not only in my capacity 
as Associate Director of Government Affairs for Miami-Dade 
Aviation Department, operator of Miami International Airport, 
but also as Chair of the Airports Council International-North 
America Facilitation Working Group.
    ACI-NA represents the local, regional, and State governing 
bodies that own and operate commercial service airports. The 
association's member airports enplane more than 95 percent of 
the domestic, and virtually all the international airline 
passenger and cargo traffic in North America.
    The ACI-NA Facilitation Working Group addresses issues 
related to international passenger inspection and facilitation 
programs and regulations, interfacing with various Homeland 
Security agencies. ACI-NA recognizes the need for an accurate 
biometric exit system, and fully supports its implementation at 
air, sea, and land points of departure.
    In order to be effective, the system must be integrated 
into the traveler's normal departure process and implemented in 
full consultation with industry stakeholders. The system must 
also take into account existing infrastructure and passenger 
flows at each airport. For about 2 years, the US-VISIT 
conducted a pilot program, which mainly focused on kiosks to 
collect biometric information of departing international 
visitors at 12 airports and two seaports, including the port of 
Miami. In the pilot airports, kiosks were placed in a secure 
area after the screening checkpoint. The expectation was that 
the passenger would use the kiosk and then proceed to their 
departure gate and board their flight. There was good 
communication between US-VISIT and the industry during the 
phase of the pilot.
    While officials from the US-VISIT program did provide some 
notice of the termination of the pilots to the airports 
involved, little information on the program has been shared. 
US-VISIT has stated that the technology for collecting the 
biometrics was successful, but that the compliance rates were 
lower than expected. ACI-NA is disappointed that there was no 
formal debriefing or sharing of information during the pilot or 
on the final report prepared by the US-VISIT Office in December 
2005 on the effectiveness of the pilot program. With such 
limited data, we are unable to fully evaluate the pilot program 
or make recommendations for improvement.
    ACI-NA has heard from numerous airport officials that they 
were not surprised at the reported low compliance rate, as 
travelers had to seek out the kiosks because they were not 
integrated into the existing passenger flow. It is clear that 
any successful future program must be incorporated at a 
location through which passengers must proceed.
    Again, there has been little collaboration with the airport 
community on the DHS current plan to place the exit process at 
airline check-in counters. This proposal is strongly opposed by 
the airlines. Most importantly, ACI-NA is concerned the 
inherently governmental function of Immigration and Border 
Patrol is to be abdicated to private industry.
    The collection of entry or exit information from passengers 
has always been a Federal responsibility, and no compelling 
reason has been provided for change. US-VISIT must engage in 
thorough and meaningful consultations with airports and 
airlines to determine the most efficient method and location 
for collection of a traveler's biometric as they exit the 
country. Such a collaborative process is necessary, as the exit 
program presents potential problems in accommodating both 
equipment and staff into airports, where unfunded Federal 
mandates have already claimed premium space.
    Unfortunately, unlike airports in most other parts of the 
world, U.S. airports were not designed or built to accommodate 
passenger departure controls.
    We would also stress that customer service must be 
considered in designing an effective US-VISIT Exit program. 
Numerous organizations have recently documented the important 
economic contribution of international travel for both the 
aviation industry and the U.S. economy as a whole. 
International airline passengers, like domestic travelers, are 
already experiencing record delays and inconveniences, and we 
should ensure that any new system does not further complicate 
the travel process.
    ACI-NA and our member airports look forward to working with 
DHS and its agencies, including the US-VISIT program office, as 
well as industry partners, to ensure that the exit elements of 
US-VISIT actually enhance both U.S. security and travel.
    We appreciate the subcommittee's interests in this 
important issue, and look forward to working with you to 
accomplish our mutual goals. Thank you.
    Ms. Sanchez. Thank you so much for your testimony.
    [The statement of Ms. Sotorrio follows:]

                   Prepared Statement of Ana Sotorro

    Chairwoman Sanchez, Ranking Member Souder, thank you for the 
opportunity to testify today on this important subject. I am appearing 
today not only in my capacity as Associate Director, Government Affairs 
for Miami-Dade Aviation Department, operator of Miami International 
Airport, but also as Chair of the Airports Council International--North 
America (ACI-NA) Facilitation Working Group. ACI-NA represents the 
local, regional, and state governing bodies that own and operate 
commercial service airports. The association's member airports enplane 
more than 95 percent of the domestic and virtually all the 
international airline passenger and cargo traffic in North America. 
Nearly 400 aviation-related businesses are also members of ACI-NA. The 
ACI-NA Facilitation Working Group addresses issues related to 
international passenger inspection and facilitation programs and 
regulations, interfacing with various agencies at the Department of 
Homeland Security (DHS) including U.S. Customs and Border Protection 
(CBP), the US-VISIT Program Office and the TSA's Office of Screening 
Coordination.
    ACI-NA recognizes the need for an accurate biometric exit system 
and fully supports its implementation at air, sea and land points of 
departure. In order to be effective the system must be integrated into 
the traveler's normal departure process and implemented in full 
consultation with industry stakeholders. The system must also take into 
account existing infrastructure and passenger flows at each airport. 
Additionally, this is an important governmental function and it should 
be appropriately funded to ensure its success.
    For about two years, US-VISIT conducted a pilot program which 
mainly focused on kiosks to collect biometric information of departing 
international visitors at twelve airports and two seaports. Kiosks were 
placed in the pilot airports in the secure area after the TSA passenger 
security checkpoint. The expectation was that the passenger would use 
the kiosk and then proceed to their departure gate and board their 
flight.
    There was good communication between US-VISIT and the industry 
during the roll-out phase of the pilot. While officials from the US-
VISIT Program did provide some notice of the termination of the pilots 
to the airports involved, little information on the success or failure 
of the program has been shared with the industry. US-VISIT has stated 
that the technology for collecting the biometrics was successful, but 
that the compliance rates were lower than expected. ACI-NA is 
disappointed that there was no formal debriefing or sharing of 
information during the pilot or on the final report prepared by the 
USVISIT office in December 2005 on the effectiveness of the pilot 
program. With such limited data, the airport community is unable to 
fully evaluate the pilot program or make recommendations for 
improvement.
    In preparation for this hearing, ACI-NA contacted member airports 
to obtain information in response to the effectiveness of the pilot 
program. Numerous airport officials stated they were not surprised at 
the reported low compliance rate as departing travelers had to seek out 
the kiosks because they were not integrated into the existing passenger 
process. It is clear that any successful future program must ensure 
that the process in incorporated at a location through which passengers 
must proceed.
    ACI-NA has learned that DHS currently plans on implementing the 
full exit system in 2008 and that the collection of biometric 
information is to take place at airline check-in counters at airports. 
Again, there has been little collaboration with the airport community 
regarding this decision. Further, we understand that such a system is 
strongly opposed by the airline industry. Most importantly, ACI-NA is 
concerned the inherently governmental function of immigration and 
border control is to be abdicated to private industry. There are 
significant legal and liability issues that would arise if individuals 
employed by private entities were required to respond if a traveler 
that submits their biometric information is found to be in violation of 
their visa or is wanted for other offenses. Private companies have no 
law enforcement authority and this critical homeland security function 
should not be imposed on them.
    The collection of entry or exit information from passengers has 
always been a federal responsibility and DHS has not provided any 
compelling reason or direction from Congress for change. We urge 
Congress to direct DHS and the US-VISIT office to engage in thorough 
and meaningful consultations with airports and airlines to ensure that 
the exit process is not outsourced to private industry, which does not 
have the resources or the law enforcement powers to effectively 
implement the program. Further, US-VISIT must work closely with 
industry partners to determine the most efficient method and location 
for collection of a traveler's biometrics as they exit the country. 
Such a collaborative process is necessary as the exit program presents 
potential problems in accommodating both equipment and staff into 
airports where previously there may not have been governmental 
requirements or personnel. Space to accommodate a full exit program is 
already at a premium at many airports. Additionally, unlike airports in 
most other parts of the world, U.S. airports were not designed or built 
to accommodate passenger departure controls.
    While our primary concern is for the security of airline passengers 
and others at the airport, it is important to stress that customer 
service should also be considered in designing an effective US-Visit 
Exit program. Numerous organizations have recently documented the 
important economic contribution of international travel for both the 
aviation industry and the U.S. economy as a whole. International 
airline passengers, like domestic travelers, are already experiencing 
record delays and inconvenience and we should ensure that any new 
system does not further complicate the travel process.
    ACI-NA and our member airports look forward to working with DHS and 
its agencies, including the US-VISIT Program Office as well as industry 
partners to ensure that the exit elements of US-VISIT actually enhance 
both U.S. security and travel. We appreciate the Subcommittee's 
interest in this important issue and look forward to working with you 
to accomplish our mutual goals.

    Ms. Sanchez. And I now recognize myself for some questions.
    Can you both describe the difference between what the 
airlines experienced in terms of partnership and coordination 
with the Department on the US-VISIT Exit component and what you 
think should have happened?
    Ms. Sotorrio. Sure, I will take a crack at it. What we 
would have liked to have seen is a true partnership, where we 
could have worked collaboratively with not just US-VISIT, but 
also with the airlines in identifying and developing the 
optimal solution. There was that type of communication, I 
think, early on, but somehow that was not followed through 
after the conclusion of the pilots. And so, you know, therefore 
at this point we find ourselves with very little data upon 
which to base any recommendations.
    Mr. May. Ditto. And beyond that, look, we ran a couple of--
DHS ran some pilot projects. As my colleague here has said, 
they then didn't share with us the results of those pilot 
projects. They sort of came to the conclusion, because it, 
quote-unquote, fit their business plan, that they wanted to 
unilaterally establish that this should be done by carriers at 
our check-in counters. Well, that, as I have testified, runs 
very counter to our business plan.
    There was never a pilot done to see what the dynamics of 
that process would be like. And it was almost a unilateral sort 
of fait accompli that that was going to be the way it worked.
    We have worked with DHS and TSA on countless programs. We 
are working with them on APIS. We are working with them on AQQ 
and Secure Flight. The reality is, and I think the committee 
already understands this, if the goal is to collect information 
on who is in and who is out of the country, a lot of that 
information is already being collected via the APIS program. 
The biometric is going to refine that process a little bit.
    And the other thing you need to know is this isn't a ``go/
no-go'' program. This is just a collection effort. It doesn't 
say, and it sort of reflects back on the Congressman's 
questions on the other side, is how do you know it is the right 
person? We really don't know the answer to that. We know that 
we are collecting biometric information. And the comparisons 
are not being done prior to these individuals departing on 
whatever flight they are going to depart on. So I think there 
are lots and lots of issues that need to be discussed, 
resolved, costs.
    But at the end of the day it is a law enforcement function. 
That is what this Congress has told DHS on six different 
occasions. The 9/11 Commission agrees.
    And, secondly, it can't interfere with the business plans. 
We have got great plans to facilitate people through the 
process far more efficiently. This runs directly counter to 
that. And if somebody had come to us and said, ``Gee, what do 
you think about doing it at the counter?'' that is exactly what 
we would have said at that point as well.
    So we think doing it at the checkpoint is the best place to 
do it. The reason they are changing out those people who are 
checking documents has a basis in security concern. And we 
think that if you have got qualified, trained people there, 
that is the best place to have the process.
    Ms. Sanchez. Mr. May, I have a letter. Mr. Thompson, the 
Chairman, sent a letter asking various questions about, in 
particular, the exit----
    Mr. May. I saw his letter.
    Ms. Sanchez. --piece of US-VISIT, and the Department's 
answer back to how have you all been talking basically, how did 
you--actually, how did you inform the stakeholders? Their 
answer back was that they had been in contact with industry 
stakeholders regarding the development of a new process for 
collecting biometric exit data. And in addition to informal 
conversations, DHS officials formally discussed the vision of a 
biometric exit system with groups of airline industry 
representatives at four detailed level meetings this year. Are 
you aware of those?
    Mr. May. I am not personally aware of all of them. I 
wouldn't have personally attended. I am sure my staff have. I 
can verify for you that we have had, you know, very formal 
meetings with DHS on this subject, as we have on a lot of other 
subjects. But the one that counts most is when we had a meeting 
with them and were informed that they had made a business 
decision, and this was going to be the plan.
    Ms. Sanchez. When did they inform you or inform the 
stakeholders of that?
    Mr. May. If memory serves, sometime in February or March of 
this year, where they made a unilateral decision. And we have 
had such a wonderful cooperating relationship with them over 
the years, it just sort of was out of character a little bit 
more than anything else. And I want to maintain that 
relationship. From a security standpoint, we think US-VISIT 
Exit is very important. We have got to find a way to help get 
that done, as we have with all the other programs.
    Ms. Sanchez. The Department is considering different ways 
to support air carriers in the implementation of the US-VISIT 
Exit program. Some of the things they mentioned are financial 
or technical assistance. What type of support could you use 
from the Department? What is most needed and useful to 
airlines?
    Mr. May. What airlines most need is for the DHS to accept 
and understand, as Congress has directed, that this is a 
governmental function, it is a law enforcement function, it is 
an immigration function, and ought to be conducted by qualified 
officers of the Department, not by counter personnel or 
personnel employed by the airlines.
    Ms. Sanchez. Ms. Sotorrio, would it affect your airport?
    Ms. Sotorrio. What? I am sorry?
    Ms. Sanchez. Would--how they plan on collecting it, how is 
it going to affect your functions?
    Ms. Sotorrio. Well, for example, Mr. May suggested that the 
process should occur at the checkpoints. You know, we are not 
closed to that idea. I mean we would be open to exploring that 
idea. But we would certainly have concern, because many 
airports, including mine, already have very tight footprints 
for those checkpoints. They are very congested places. And 
quite frankly, I am not sure where you would put that process 
in a checkpoint.
    So you know, perhaps there is a way to make it work. I am 
not saying it can't work. But there certainly hasn't been 
enough analysis done to say that that--you know, with any kind 
of definity--that that really can work.
    Ms. Sanchez. Thank you. Mr. Souder for 5 minutes.
    Mr. Souder. Thank you. I am wrestling with a couple of 
questions on this. I fundamentally don't see the bright line 
distinction on law enforcement and the other. But I think you 
have also made a compelling case about why there needs to be 
consultation. Because the question is to me the law enforcement 
function, is if you have somebody you need to detain or hold, 
that clearly becomes law enforcement function. But for 
clearance, I don't see that. It partly becomes an efficiency 
question in the airport where that is going to occur, because 
some airports have tremendously jammed Homeland Security areas, 
others have it at the gate, and some others have it at some of 
the ticket entry points.
    I thought your point, Mr. May, was tremendous about 
watching how I behaved. I still tend to like more of the hard 
tickets, versus my son, who I think if he ever uses another 
hard ticket will feel he has failed technologically. And the 
kiosks took a little while to check in, but now you do it on 
your home computer. And this cell phone change is huge. 
Clearly, I doubt if that really hit anybody.
    What I am wondering is how much of this is over cost? 
Because even if the law enforcement function does go, to the 
degree it is called a law enforcement function, to the airline 
desk, either the gate--I thought Mr. Green made a tremendous 
point whether it is at the gate or whether at the check-in 
desk--to some of this is just a technological question. Because 
the little reader that goes through and scans, clearly where we 
are headed is to have a biometric indicator on that. And so if 
you have your systems networked like computers should be 
networked, where it is scanned, or even multiple times, it can 
happen when you check in, it can happen at the Homeland 
Security place, and at the gate for that matter, to make sure 
that you aren't having changes.
    I have a heavy manufacturing area that does a lot of 
defense electronics. And I have looked at the models that are 
being developed, some under DHS. I happen to have the three 
largest companies that make driver's licenses, for example. The 
biggest does 37 States plus Singapore. And Eye Scan 
International. But a total of 46 or 47 out of the 50 States 
licenses are done in my home area. And they have all kind of 
flexibility. It is just a question of what we are willing to 
pay for and put in them.
    There is a company that is working with Homeland Security, 
but right now with CIA, DIA and certain key installations, 
where you just take your badge. I mean it is like a movie. You 
take your badge and you go through and you might have to put 
your finger on it. But we are not there yet.
    Mr. May. Right.
    Mr. Souder. And the question is how do we get there and who 
is going to pay for it? But I don't necessarily accept the 
assumption that this can't be done at the check-in or any given 
place. It really is a question of how easy the technology is 
and how fast the technology is. Do you disagree with that, 
either of you, or in common?
    Mr. May. Listen, we are always interested in the bottom 
line, so I could never with a straight face tell you that money 
doesn't enter into the issue. I would also quickly point out to 
you, we are investing millions of dollars right now on TSA, 
DHS-compliant programs that many of which are tied very closely 
to this.
    My driver's license, as I am sure your driver's license 
does, has a magnetic swipe on the back. That contains biometric 
information, fingerprint, photo. It is on there. If we are 
using that same kind of technology that gets scanned at the TSA 
checkpoint--and, again, for the sake of argument at the gate, 
as you board the plane, in lieu of that paper or even 
electronically printed out boarding pass--we have accomplished 
a lot to get people to do that. I think many of these 
technologies and tasks are going to be merged in the future.
    But it seems to make sense to me--and I understand my 
colleague from ACI's perspective, because I travel through a 
lot of those airports--it seems to me that if we have got a 
reasonably well-trained person who is going to stop you in 
line, take a look at your identification and your ticket or 
your boarding pass, compare those, that at the same time, if 
you are a foreign national and are so required, you put two 
fingers in a reader, which is right there that is collecting 
that information, and it is a seamless process. And we know, 
and I think the GAO witness talked about the fact that what 
needs to happen is to have it be a collection point, if you 
will, where you can run those folks through.
    Gates have been one alternative. But as you know, you could 
have literally hundreds of gates in an airport, some of the 
larger airports. And that would require reading equipment at 
many, many, many locations beyond that which it can be done at 
the TSA checkpoint. I would like to have that all be 
centralized and coordinated.
    But, again, I think it points out the importance of working 
with ACI and ATA and others to establish the real business 
imperatives from our side as well.
    Mr. Souder. If I can make this last comment. I mean RFID 
technology, for example Wal-Mart is now--one of the things 
working in the narcotics area, they are splitting up--they are 
able to tell whether, when they have these loads of 
pseudophedrine or things moving in their trucks, whether it has 
been broken into and whether certain pills are missing.
    Mr. May. We are using that same technology to check 
security for cargo and RFID to track baggage.
    Mr. Souder. We are near breakthroughs and quantity 
breakthroughs that will change this whole field. Because we 
cannot have work permits, we cannot deal with visa overstays. I 
know a number of States have used--started to use fingerprints, 
but they don't have any scanners that are affordable. You have 
to have scanners, like they are starting to do for stolen Visa 
cards and everything else at different places. We are going to 
see this technology just mushroom.
    I believe we are on the edge of getting a scanner that can 
do biometric at 7--to $10. When it is 7--to $10 it doesn't 
matter how many--I mean it matters a little, but it is peanuts 
when you are talking the gates where you are at. Because you 
need to have it in the police car when they pick up somebody. 
You need to have it--one new challenge I had on work permits, 
and I never thought of, were the direct marketing people are 
very concerned that in employment, how is this going to affect 
Mary Kay, how is this going to affect Discovery Toys, Amway? 
Every time you have a party and there are some people there who 
want to be a salesperson, you are going to have to scan them to 
see that they are legal. Well, you are not going to have big 
machines that cost thousands of dollars. You are going to have 
to have something at 7-to-10 that can check into a system.
    We are getting near that. We don't have it. And then it is 
going to take us a while to implement and get all the IDs. And 
the question is how do we get through this interim period 
without totally disrupting air traffic, and yet keeping America 
safe?
    I believe we have an interim challenge and then we have a 
longer term; and you certainly should be at the table on this 
to figure out these variations.
    Mr. May. We agree. I would simply note for you that having 
the hardware to accomplish those tasks at a very low price 
doesn't always cover the fact that the impact on software for 
our system is critically important. Because these are our 
systems that you are talking about. And then we have to find 
ways to connect and transmit that information back to DHS, TSA, 
whoever the agency may be.
    Mr. Souder. And that is where we may get into what is law 
enforcement and what is not law enforcement.
    Mr. May. Right.
    Mr. Souder. Thank you.
    Ms. Sanchez. Were you both in here when we had the three 
gentlemen beforehand? What is your understanding of what would 
happen in the proposed system that they were talking about? 
What is your understanding of what would be the responsibility 
of an air carrier?
    Mr. May. If I interpreted correctly of what they intend for 
their plan, I have no reason at this stage of the game, 
although I would like to have reason, that it is any different 
than the announcement they made earlier to us earlier this year 
that it would be a plan executed at the check-in counters of 
airlines and run by airline personnel.
    I would like to think that that is not a final plan. I have 
seen some documentation from DHS that leaves open that 
question. And I think we ought to have, you know, more 
discussions on that point.
    You know, this may be heretic, but I think the Congress 
ought to ask, given the huge advances in technology that we are 
on the cusp of, given the fact we are collecting huge amounts 
of biometric data right now, given the fact you are going to 
have even more demands from an immigration perspective on land 
borders, et cetera, you know, it may be that instituting a 
modest delay on some of these collection efforts for biometric 
and, instead, relying more heavily on biographic might not be a 
bad practical solution to some of the issues that have been 
raised here.
    Ms. Sanchez. Ms. Sotorrio, do you have any comment on that? 
And more importantly, if you--just give us an indication of 
every time we make a change, I am assuming--I mean I go through 
a lot of airports. I haven't been through yours in a bit. But 
every time we make a change everything has to be redone at the 
airport; different lines, different corridors. Who pays for all 
that?
    Ms. Sotorrio. Well, thank you. Yes. Unfortunately, many of 
these costs fall on the airport operator. And of course, 
ultimately our bills are mostly paid by the airlines. And the 
airlines, I think, are in the business to make a buck. So if 
you, you know, take that all the way down, it is the ultimate 
consumer, so the passenger is really paying for these 
improvements.
    We in Miami are in the midst of a 6.2 billion, with a B, 
capital development program. So there is an awful lot of 
construction taking place. And we are constantly having to 
shift airlines, relocate ticket counters, you know, do a whole 
series of moves in order to accommodate the construction. So 
that is something also to keep in mind. It is not just when 
you, you know, start a new process, but also initiating these 
new processes in the middle of an environment that is very 
dynamic and constantly in flux as well.
    Ms. Sanchez. I can certainly appreciate that. In the last 7 
years I think they have been constructing Dulles, or 
reconstructing it, and that is only a $3 billion capital 
project, so I can imagine you are going to have twice as many 
headaches.
    Anyway, thank you both for being before us and for your 
valuable testimony, and also the members for their questions. 
And the members of the subcommittee may have additional 
questions, some of them. It has been a very busy week. So I 
apologize for not having the entire membership here. But we 
will ask you, if they have questions, to respond in writing. We 
hope that will be quick so we can continue our oversight.
    And, hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 2:52 p.m., the subcommittee was adjourned.]


              APPENDIX: Additional Questions and Responses

                              ----------                              


                  Questions from Hon. Loretta Sanchez

                     Responses from Robert A. Mocny

    Question 1.: With respect to the newly proposed biometric air exit 
procedures please describe the Department's consultations with the Air 
Transport Association both before and after the announcement was made 
in May 2007 to incorporate US-VISIT exit into the check-in process.
    Response: As stated in our written testimony, ATA and its member 
carriers worked very closely with US-VISIT during the development and 
deployment of the entry process in 2003 and 2004. In addition, there 
was excellent communication during the development and implementation 
of the exit pilot in 2004 and 2005. US-VISIT worked very closely with 
ATA and its members to determine which airports should participate in 
the pilot, holding regular conference calls with the industry. All of 
our major international carriers were interested in having the pilot at 
one of their hub airports and US-VISIT agreed to this plan. As a 
result, among the final twelve airports chosen, 7 of those were hub 
airports for our major carriers: Alaska Airlines/ Seattle-Tacoma 
International Airport; American Airlines/ Dallas/Fort Worth 
International Airport; Continental Airlines/ Newark Liberty 
International Airport; Delta Air Lines/ Hartsfield-Jackson Atlanta 
International Airport; Northwest Airlines/ Detroit Metropolitan Wayne 
County Airport; United Airlines/ Chicago O'Hare International Airport 
and Denver International Airport; and US Airways/ Philadelphia 
International Airport.
    In 2005 we were told by US-VISIT that it would be sharing the 
results of the exit pilot with us once it had been shared with the 
Department of Homeland Security. We understand that this report was 
sent to the Secretary of DHS in December of 2005. We are still waiting 
to see it.
    We did not formally hear from US-VISIT again on exit until December 
of 2006 when were told that DHS was ready to enter into discussions 
with the industry on an exit strategy. In January 2007, ATA was invited 
to participate in an industry-wide meeting hosted by US-VISIT, Customs 
and Border Protection (CBP), and the Transportation Security 
Administration (TSA) to discuss how DHS could work in partnership to 
develop an exit solution that would meet the legislative mandates but 
fit within the industry's evolving business processes. The assurance 
that we ``won't do anything without stakeholder input'' that ATA 
received at the January meeting was reiterated in subsequent meetings.
    On May 22, 2007, at the request of DHS, ATA hosted a meeting of the 
ATA carriers. DHS was represented by personnel from the Secretary's 
office, US-VISIT staff, CBP and TSA. At that meeting, DHS formally 
announced to us its unilateral decision to force the airlines to 
collect a biometric during our check-in process. In addition, DHS 
advised the industry that it planned to issue a Notice of Proposed 
Rulemaking (NPRM) directing the airlines to collect the biometric. 
Needless to say, we were dismayed to learn that this decision had been 
made despite being specifically told that DHS/US-VISIT would be seeking 
our input.
    DHS asserts that it has been consulting with the industry. 
Unilaterally making a decision to offload its responsibility for this 
program on the airline industry is not ``consultation''--especially 
after repeated promises and discussions about including the industry in 
its decision-making process.
    Since the May 22nd meeting, ATA has had several meetings with 
various DHS officials who continue to officially reiterate that the 
decision has been made and that it is not negotiable.

    Question 2.: Assuming the Department moves forward with its 
proposed biometric air exit plan, what would be the best way to engage 
and use the resources of the Air Transport Association in the 
implementation of the new biometric collection?
    Response: ATA and its member airlines are adamantly opposed to 
collecting a biometric on behalf of the United States Government to 
satisfy the legislative requirements of the exit program. The entry/
exit information collection system has always been, and remains a 
responsibility of the federal government.
    As we committed in our initial meeting on exit in January 2007, ATA 
would be happy to engage in a discussion of where and how the 
government could develop and deploy an exit solution. We are willing to 
work with US-VISIT representatives to ensure better compliance should 
it choose to mandate an approach using the kiosks that were previously 
tested. In addition, we would be happy to work with them to develop 
better and more efficient procedures for collection of the biometric at 
the TSA checkpoints--as we have recommended previously.

    Question 3.: What type of technical and financial burdens would the 
collection of biometrics at the check-in counter place on the air 
carriers?
    Response: Since we only just learned of this proposal in May, ATA 
and our member carriers have not conducted a detailed analysis of the 
technical and financial burdens resulting from the collection of a 
biometric during the check-in process. As we indicated during the 
hearing, carriers are working hard to simplify the passenger check-in 
process. Today, approximately 30 percent of passengers check in online 
and that percentage is growing. Airlines are implementing other 
procedures and spending significant revenue to expand their off-airport 
check-in capabilities to include the use of PDAs and cell phones. The 
current DHS proposal to have the air carriers collect a biometric 
assumes a static check-in process that is not a reality now and will be 
less and less so in the future. Introducing a manual, airport-centric 
process into the evolving electronic check-in environment will decrease 
efficiency and result in a costly step backward for both passengers and 
air carriers.
    In order for us to properly calculate the technical and financial 
burdens that this proposal would place on air carriers, there are 
hundreds of variables that must be considered including:
        <bullet> The number of domestic kiosks that would have to be 
        retrofitted to accommodate fingerprint scanners--one US carrier 
        alone estimates that they have over 1,100 units
        <bullet> The cost of breakage and repair spares
        <bullet> The cost of replacement contracts with vendor
        <bullet> The cost and length of time to retrofit all the 
        kiosks--carriers would have to dedicate programming time and 
        staff to a project this large
        <bullet> The cost of reprogramming legacy check-in systems to 
        accommodate fingerprint scanning capability
        <bullet> The cost of data transmission pipelines to the USG.

    Question 4.: What process or combination of processes would you 
recommend the Department deploy to meet the statutory requirement of 
collecting biometrics upon a traveler's exit from the United States?
    Response: ATA and its members believe that there is a readily 
available solution that DHS should consider. Since US airports do not 
have outbound immigration control procedures similar to most foreign 
countries, we believe that the most realistic solution is for DHS 
representatives to collect the biometric information of departing 
foreign visitors at some point during screening at the TSA security 
checkpoint. The TSA has been responsible for screening airline 
passengers for over five years. Adding a biometric information 
collection to that process can be accomplished seamlessly. The TSA 
security checkpoint is common to all airports in the United States and 
offers the most logical solution.

    Question 5.: At the hearing, you stated that you have seen some 
documentation from the Department of Homeland Security indicated that 
the proposed plan announced in May 2007 is not final. Please describe 
the documentation you reviewed that would lead you to believe that the 
proposed air exit process is still open to negotiation.
    Response: Despite the declaration by DHS that it has made a 
unilateral decision to force the airlines to collect the biometric at 
check-in, ATA continues to be told by various DHS/US-VISIT staff that 
they want to ``work with the airlines'' to develop the most viable and 
sensible exit solution. This has led us to believe that the door is 
still open--albeit, very slightly, for some negotiation. ATA sincerely 
hopes this is the case. As stated before, we would be more than willing 
to work collaboratively with the government to determine where it can 
deploy an exit solution.

                 Questions From Hon. Bennie G. Thompson

                     Responses From Robert A. Mocny

    Question 1.: To what extent were the results from the Department's 
initial biometric air exit pilot kiosks shared with the air industry, 
including the Air Transport Association and Airports Council 
International? If the results were not shared, why not?
    Response: The Department did not provide formal documentation of 
the results of the Exit Evaluation to our airline industry partners 
because the final evaluation report was being reviewed by the 
Department in order to best determine next steps for the Exit program. 
After analysis was completed, the Department announced its plans to 
move forward with full deployment of biometric exit on March 20, 2007.

    Question 2.: With respect to the newly proposed biometric air exit 
procedures, please describe the Department's consultations with the air 
industry both before and after the announcement was made in May 2007 to 
incorporate US-VISIT exit into the check-in process.
    What type of recourse or fall-back procedures does the Department 
intend to provide a traveler that is having difficulty providing his or 
her biometrics to the air carriers?
    Response: US-VISIT and the Department of Homeland Security have 
been in contact with industry stakeholders on developing a new process 
for collecting biometrics during exit. Department officials discussed 
the progress of a biometric exit system with representatives from the 
airline industry at four separate meetings in 2007.
    The first two meetings occurred on January 25 and 29,2007, at the 
Transportation Security Administration and included airline and airport 
representatives. Another meeting occurred on February 21,2007, followed 
by a meeting between Deputy Secretary Michael Jackson and airline 
industry representatives. At each meeting, Department officials 
discussed the challenges of implementing an effective biometric exit 
system for air travelers and possible solutions.
    Concerning recourse procedures, the determination as to how a 
traveler having difficulty providing his or her biometric information 
will be made during the course of further development of the system and 
in consultation with the carriers. In addition, all of the aspects of 
the US-VISIT'S biometric exit system will be determined only after 
consultation with stake holders and the general public through notice 
and comment making.

    Question: How much and what type of training does the Department 
plan on providing the air carriers to assist them in their collection 
of a traveler's biometrics?
    Response: The determination as to the type and duration of training 
to be provided to carriers will be made during the course of further 
development of the system and in consultation with the carriers through 
the federal rule-making process. US-VISIT intends to employ an easy-to-
use biometric collection system that will require minimal assistance 
from the carriers' agents.

    Question 3.: The Department's plan for implementing US-VISIT exit 
for air travel through the check-in process is quite different from the 
pilot projects that were conducted. Are you planning to conduct pilot 
projects based on the new model? If not, how can you ensure that the 
implementation of this new plan at the top ten airports will not create 
major problems?
    Response: We do not intend to conduct additional pilots. However, 
at this stage all plans for the exit system are tentative. The policies 
and procedures implementing the system will be determined through 
notice-and-comment rulemaking, giving the public ample opportunity to 
comment. Additionally, we intend to conduct operational testing of the 
collection system with at least one stakeholder partner.
    Question 4.: I am concerned about the security implications of 
shifting the US-VISIT component to private companies and about the 
impact of this new responsibility on the welfare of the airlines. How 
do you justify tasking private companies with a critically important 
border security function?
    Response: Airline companies are our security partners and are 
already tasked with critically important security functions. Today, 
airlines are required to submit electronic manifest records to U.S. 
Customs and Border Protection (CBP), both for arriving and departing 
international flights. If the biometric exit solution requires direct 
carrier participation to submit biometric exit data, then carriers 
could build upon existing sharing arrangements with the Department of 
Homeland Security. However, it should be noted the Department of 
Homeland Security has not determined that any such requirements will be 
placed on airlines. This determination will only be made with the input 
of the public, through notice-and-comment rulemaking.

    Question 5.: What statutory authority authorizes the Department to 
require the air carriers to collect a foreign national's
    Response: Any changes that the Department is going to make to the 
US-VISIT program will be proposed in a Notice of Proposed Rulemaking 
(NPRM). In publishing the NPRM DHS will clearly outline all of the 
authorities authorizing the new policies in the NPRM.

    Question 6.: According to your US-VISIT implementation strategy, 
when do you expect the biometric air exit component to be fully 
implemented and able to verify the departure of at least 97% of foreign 
nationals who exit through United States airports? Would additional 
funding help expedite this timeline?
    Response: The Department of Homeland Security has set a goal of 
using biographic information to achieve an entry-exit match rate of 97 
percent within 12 months.
    In the meantime, US-VISIT will publish a Notice of Proposed 
Rulemaking to provide the public with an opportunity to comment on the 
new exit requirements that the Department is proposing. Biometric exit 
will further enhance the Department's ability to match alien entry and 
exit records. The Department expects to complete deployment of 
biometric exit to air and sea ports by the end of December 2008. At 
this time, we do not believe that the for deployment could be expedited 
with additional funding.

    Question 7.: During the hearing, you mentioned the existence of a 
``written plan'' that more thoroughly describes the new biometric air 
exit process. What is contained in this more detailed plan and when 
will it be available for the Subcommittee to review?
    Response: The Department is currently drafting a proposed rule on 
biometric exit. US-VISIT is willing to provide in-person briefings to 
Committee members and staff to fully explain our planning phases. US-
VISIT is in the process of developing the Biometric Exit project and 
has created several documents at various stages of the project 
lifecycle that are often collectively referred to as ``the project 
plan.'' Many of the project plan documents are updated or modified as 
the project progresses through its lifecycle. These documents are by 
their nature, temporary and indicate only anticipated steps in the 
program development. They should not be interpreted as representing 
final decisions on implementation. The proposed rule will serve as the 
formal explanation of the overall exit program, including air exit, and 
we look forward to discussing it with you once it is published. An 
updated Exit High Level Schedule will be submitted to the Committee 
under separate correspondence in response to a letter from Chairwoman 
Sanchez.

    Question 8.: I was concerned when US-VISIT was moved to the 
National Protection and Programs Directorate. How are you maintaining 
close collaboration and communication with the operational and 
technical needs of Customs and Border Protection and Immigration and 
Customs Enforcement?
    Response: Coordination between U.S. Customs and Border Protection 
(CBP) and US-VISIT has existed since the latter's creation in 2003, and 
the Department expects the current level of management controls and 
communication to continue. For example, CBP is a member of the 
Integrated Project Team, which helps govern US-VISIT.
    U.S. Immigration and Enforcement has assigned a special agent from 
its Office of Investigations to coordinate with US-VISIT on improving 
interior enforcement.

    Question 9: On June 5,2007, Congressional Quarterly reported that 
``DHS says it is authorized to store US VISIT-related fingerprints for 
70-75 years after collection.'' What is the purported legal authority 
mentioned in the article and what are the justifications for 
maintaining this type of information for so long?
    Response: The System of Records Notice for the Automated Biometric 
Identification System (IDENT) states:
    ``Records that are stored in an individual's file will be purged 
according to the retention and disposition guidelines that relate to 
the individual's file
    ``Testing and training data will be purged when the data is no 
longer required. Electronic records for which the statute of 
limitations has expired for all criminal violations or that are older 
than 75 years will be purged. Fingerprint cards, created for the 
purpose of entering records in the database, will be destroyed after 
data entry. Work Measurement Reports and Statistical Reports will be 
maintained within the guidelines set forth in and NCI-85-78-112 
respectively.''
    IDENT is a Department of Homeland Security (DHS)-wide system for 
storing and processing biometric and limited biographic information for 
DHS national security, law enforcement, immigration, intelligence, and 
other DHS mission-related functions, and for providing associated 
testing, training, management reporting, planning and analysis, and 
other administrative uses. IDENT was originally developed in 1994 as a 
collection and processing system for the Immigration and Naturalization 
Service (INS). Today, IDENT is the primary DHS-wide system for the 
biometric identification and verification of individuals encountered in 
DHS mission-related processes. The retention period for IDENT is 
consistent with the needs of the immigration and border management 
enterprise, particularly ICE, and CBP.
    Records will be retained until the statute of limitations has 
expired for all criminal violations or when the records are older than 
75 years. The retention period has been approved by the National 
Archives and Records Administration.

                  Questions from Hon. Loretta Sanchez

                  Responses submitted by Ana Sotorrio

    Question 1.: With respect to the newly proposed biometric exit 
procedures, please describe the Department's consultations with 
Airports Council International both before and after the announcement 
was made in May 2007 to incorporate US-VISIT exit into the check-in 
process.
    ACI-NA Response: There was no consultation with ACI-NA about how 
the Department of Homeland Security or Program Office should proceed 
following the implementation of the US-VISIT Exit pilots which were 
effective May 6, 2007. ACI-NA learned earlier this year in various 
industry meetings that DHS/US-VISIT had decided to implement the exit 
process by having airlines capture the biometric data when departing 
international visitors check-in at the airport. Additionally, there was 
no consultation with ACI-NA about whether collecting from passengers 
while they are checking in is the most effective, efficient or 
appropriate approach.
    US-VISIT staff has recently contacted ACI-NA to discuss the future 
of the passenger check-in process with a view to implementing US-VISIT 
Exit in the airport check-in area. We expect to hold this meeting in 
the near future.

    Question 2.: Assuming the Department moves forward with its 
proposed biometric air exit plan, what would be the best way to engage 
and use the resources of Airports Council lnternational in the 
implementation of the new biometric collection?
    ACI-NA Response: ACI-NA can continue to provide DHS/US-VISIT with 
background about U.S. airport concerns and views about airport customer 
service, facility, financial, technical and operational conditions and 
issues. ACI-NA also can continue to provide its U.S. airport members 
with information and the proposed schedule from DHS/US-VISIT for 
implementing US-VISIT Exit. As it has done in the past, ACI-NA can 
facilitate communication and collaboration between DHS/US-VISIT and 
U.S. airports in a timely manner. However, it is also necessary for 
DHS/US-VISIT to consult with individual airports, given their different 
facilities and passenger characteristics and the proprietary rights of 
airports to manage their facilities.

    Question 3.: What type of technical and financial burdens would the 
collection of biometrics at the in counter place on the airports?
    Most of the technical and financial burdens of including US-VISIT 
Exit into the check-in process would fall on U.S. and foreign airlines 
since they have their own check-in systems at most U.S. airports.
    However, U.S. airports which have CUTE (Common Use Terminal 
Equipment) systems used by all the airlines serving those airports will 
confront similar issues. Collecting biometrics will require equipment 
to be added to check-in counters kiosks and to be integrated into the 
CUTE system and will require modifications to computer programs so that 
the data can be forwarded to the U.S. Government. Each of these 
requirements will present technical challenges and financial issues. 
Capturing biometrics will increase the amount of time it takes for 
departing international visitors to check in and thus could lead to 
longer waits for all air passengers. The resulting congestion from the 
check-in process might result in the need for an expanded check-in area 
which would require additional financial resources.

    Question 4.: What process or combination of processes would you 
recommend the Department employ to meet the statutory requirement of 
collecting biometrics upon a traveler's exit from the United States?
    ACI-NA does not have recommendations regarding the specific process 
or combination of processes for US-VISIT Exit. However, it does urge 
that US-VISIT Exit be integrated into the passenger's normal departure 
process, be implemented in full consultation with industry stakeholders 
including airports and be funded and performed by the US Government. 
ACI-NA also recommends that DHS and/or GAO conduct a comprehensive 
study to analyze all the options, costs and benefits available for 
implementing US-VISIT Exit.
    While ACI-NA supports the goals of biometric entry-exit system, we 
question the value of imposing US-VISIT Exit on departing air 
passengers, while there is no similar requirement on travelers 
departing by sea or land. DHS has suggested that implementing US-VISIT 
at the land borders without serious economic impacts probably will not 
be feasible for 5--10 years. Therefore, we believe that it is important 
for the U.S. Government to evaluate whether its security and 
immigration objectives can be effectively met through the more easily 
collected biographic information included in the U.S. Customs and 
Border Protection's Advanced Passenger Information System (APIS).

    Question 5.: In your testimony, you indicate that the new US-VISIT 
air exit process could create liability issues for the private sector 
employees that are required to collect a traveler's biometrics. Please 
describe these potential liability issues.
    It is likely that some passengers will challenge in court the 
authority of airline personnel to capture their biometrics, 
particularly fingerprints, to deny them access to flights based on that 
data and to summon law enforcement officials to handle the situation. 
ACI-NA is also concerned about potential liability issues related to 
ensuring the accuracy of the biometrics collected, as well as 
maintaining, transmitting, and protecting the data.

                                 <all>

</pre></body></html>
